               SPECIAL REPORTS RELATING TO THE
            FEDERAL EMPLOYEES' COMPENSATION ACT
                     SPECIAL BENEFIT FUND

            FOR THE YEAR ENDED SEPTEMBER 30, 2001




                                               U.S. Department of Labor
                                              Office of Inspector General
                                        Report Number: 22-02-001-04-431
                                           Date Issued: NOV 26 2001

                                                 Carmichael
                                       Brasher Tuvell
Certified   Public      A c c o u n t a n t s & Company
This audit was performed by Carmichael, Brasher, Tuvell & Company, Certified Public Accountants, under
contract to the Inspector General, and, by acceptance, it becomes a report of the Office of Inspector General.



                                                                               _______________________________
                                                                                Assistant Inspector General for Audit
MEMORANDUM FOR:                SEE DISTRIBUTION LIST




FROM:                         JOHN J. GETEK
                              Assistant Inspector General
                               for Audit


SUBJECT:                      Special Report Relating to the Federal Employees’ Compensation Act
                              Special Benefit Fund - FY 2001
                              Report No. 22-02-001-04-431

Attached is a special report on the Federal Employees' Compensation Act (FECA) Special Benefit Fund
(the Fund) that our office prepared to assist in the audit of your agency's annual financial statements.
The U.S. Department of Labor, Employment Standards Administration, Office of Workers'
Compensation administers the Fund and the DOL Office of Inspector General is responsible for
auditing the Fund.

This special report was prepared by Carmichael, Brasher, Tuvell & Company under contract with the
Office of Inspector General, and consists of three separate reports. The first report is an opinion on the
total actuarial liability as of September 30, 2001, and the net intra-governmental accounts receivable
and the total benefit expense made by the Fund on behalf of the employing agencies for the year then
ended. The second report is an agreed-upon procedures (AUP) report on the schedule of actuarial
liability and net intra-governmental accounts receivable and benefit expense by Agency. The third
report is a service provider report on the policies and procedures placed in operation and tests of the
operating effectiveness of the Division of Federal Employees’ Compensation Organization for the
period October 1, 2000 through April 30, 2001.

The sufficiency of the procedures referred to in the agreed-upon procedures report is solely the
responsibility of the parties specified in this report. Consequently, neither we nor the firm make any
representations regarding the sufficiency of the procedures. Because the agreed-upon procedures
performed did not constitute an audit, the auditor did not express an opinion on any elements, accounts
or items as they pertained to the agreed-upon procedures report. Further, the firm has no obligation to
perform any procedures beyond those listed in the attached report.
                                                  -2-

If you have any comments or suggestions on the contents or sufficiency of this report or the procedures
performed that you would like considered for future audits, please send your comments via regular
mail, facsimile, or e-mail to:

       Michael T. McFadden
       Director, Office of Performance
         and Financial Accountability Audits
       U.S. Department of Labor
       Office of Inspector General
       200 Constitution Ave., NW, Room S-5022
       Washington, D.C. 20210

       Fax: (202) 693-5169
       e-mail: mmcfadden@oig.dol.gov

This report is available at our web site http://www.oig.dol.gov/public/reports/oa/2002/main.htm

Attachment
DISTRIBUTION LIST

D. Cameron Findlay                               Thomas D. Roslewicz
Deputy Secretary of Labor                        Deputy Inspector General for Audit Services
U.S. DEPARTMENT OF LABOR                         U.S. DEPARTMENT OF HEALTH
Room S-2018                                        AND HUMAN SERVICES
200 Constitution Ave., N.W.                      330 Independence Ave., SW, Rm 5700
Washington, DC 20210                             Washington, DC 20201
findlay-cameron@dol.gov                          troslewi@os.dhhs.gov

Toby Jarman                                      James Heist
Assistant Inspector General for Audit            Assistant Inspector General for Audit
U.S. AGENCY FOR INTERNATIONAL                    U.S. DEPARTMENT OF HOUSING AND URBAN
  DEVELOPMENT                                      DEVELOPMENT
1300 Pennsylvania Ave., NW                       451 7th Street, SW, Room 8256
Washington, DC 20523                             Washington, DC 20410
tjarman@usaid.gov                                jheist@hudoig.gov

Richard D. Long                                  Roger Larouche
Assistant Inspector General for Audit            Assistant Inspector General for Audits
U.S. DEPARTMENT OF AGRICULTURE                   U.S. DEPARTMENT OF THE INTERIOR
12th and Independence Ave., SW, Room 403-E       1849 C St., NW, Mail Stop 5354
Washington, DC 20250                             Washington, DC 20240
rdlong@oig.usda.gov                              Roger_Larouche@oig.doi.gov

Larry B. Gross                                   Guy Zimmerman
Assistant Inspector General for Auditing         Assistant Inspector General for Audit
U.S. DEPARTMENT OF COMMERCE                      U.S. DEPARTMENT OF JUSTICE
14th and Constitution Ave., NW, Room 7721        1425 New York Ave, N.W.
Washington, D.C. 20230                           Washington, DC 20530
lgross@oig.doc.gov                               guyzimmerman@usdoj.gov

David K. Steensma                                Richard Berman
Assistant Inspector General for Auditing         Assistant Inspector General for Audit
U.S. DEPARTMENT OF DEFENSE                       U.S. DEPARTMENT OF STATE
400 Army Navy Drive, Room 808                    2201 C Street, NW, Room 6817
Arlington, VA 22202-2884                         Washington, DC 20520-6817
dsteensma@dodig.osd.mil                          bermanr@state.gov

Thomas A. Carter                                 Alexis M. Stefani
Assistant Inspector General for Audit Services   Assistant Inspector General for Audit
U.S. DEPARTMENT OF EDUCATION                     U.S. DEPARTMENT OF TRANSPORTATION
600 Independence Ave., SW, Room 4200-MES         400 Seventh Street, NW, Room 9202
Washington, DC 20202-1510                        Washington, DC 20590
tom.carter@ed.gov                                stefania@oig.dot.gov

Phillip Holbrook                                 Dennis Schindel
Assistant Inspector General for Audit Services   Assistant Inspector General for Audit
U.S. DEPARTMENT OF ENERGY                        U.S. DEPARTMENT OF THE TREASURY
1000 Independence Ave., SW                       740 15th Street, NW, Room 600
Washington, DC 20585                             Washington, DC, 20220
phil.holbrook@hq.doe.gov                         schindeld@oig.treas.gov
Michael Slachta                            Harvey D. Thorp
Assistant Inspector General for Audit      Assistant Inspector General for Audit
U.S. DEPARTMENT OF VETERANS AFFAIRS        U.S. OFFICE OF PERSONNEL MANAGEMENT
810 Vermont Ave., NW, Room 756TW           1900 E. Street, NW, Room 6400
Washington, DC 20420                       Washington, DC 20415-0001
michael.slachta@mail.va.gov                hdthorp@opm.gov

James O. Rauch                             Robert G. Seabrooks
Assistant Inspector General for Audit      Assistant Inspector General -Audit
U.S. ENVIRONMENTAL PROTECTION AGENCY       SMALL BUSINESS ADMINISTRATION
401 M Street, SW, (NE-3606)                409 3rd Street, SW, 7th Floor
Washington, DC 20460                       Washington, DC 20416
rauch.james@epa.gov                        robert.seabrooks@sba.gov

Nancy Hendricks                            Steven L. Schaeffer
Assistant Inspector General for Audit      Assistant Inspector General for Audit
FEDERAL EMERGENCY MANAGEMENT               SOCIAL SECURITY ADMINISTRATION
AGENCY                                     6401 Security Boulevard, Suite 4-G-1 Opers
500 C Street, SW, Suite 506                Baltimore, MD 21235
Washington, DC 20472                       steven.schaeffer@ssa.gov
nancy.hendricks@fema.gov
                                           Ben R. Wagner
Eugene L. Wesley                           Assistant Inspector General for Audit
Assistant Inspector General for Auditing   TENNESSEE VALLEY AUTHORITY
GENERAL SERVICES ADMINISTRATION            400 West Summit Hill Drive, Room ET4C
18th and F Streets, NW, Room 5308          Knoxville, TN 37902-1499
Washington, DC 20405                       br.wagner@tva.gov
eugene.wesley@gsa.gov
                                           Thomas R. Denneny
Alan Lamoreaux                             Acting Deputy Chief Inspector
Assistant Inspector General for Auditing   U.S. POSTAL INSPECTION SERVICE
NASA                                       475 L'Enfant Plaza West, SW, Room 3014
300 E Street, SW, Code W, Room 8T79        Washington, DC 20260-2190
Washington, DC 20546                       trdenneny@uspis.gov
alamorea@hq.nasa.gov
                                           Deborah Ritt
Deborah H. Cureton                         Assistant Inspector General for Audit
Assistant Inspector General for Audit      U.S. POSTAL SERVICE
NATIONAL SCIENCE FOUNDATION                1735 North Lynn St.
4201 Wilson Blvd., Room 1135               Arlington, VA 22209-2005
Arlington, VA 22230                        dritt@usps.oig.gov
dcureton@nsf.gov
                                           James Speer
Stephen Dingbaum                           Auditor General
Assistant Inspector General for Audit      U.S. AIR FORCE AUDIT AGENCY
NUCLEAR REGULATORY COMMISSION              1120 Air Force Pentagon
Mail Stop T5 D28                            Room 4E168
Washington, DC 20555                       Washington, DC 20330-1120
sdd@nrc.gov                                james.speer@pentagon.af.mil
Francis E. Reardon                   Robert Dacey
Auditor General                      Director, Consolidated Audit and Computer
U.S. ARMY AUDIT AGENCY                 Security Issues
3101 Park Center Drive, Room 1301    GENERAL ACCOUNTING OFFICE
Alexandria, VA 22302-1596            441 G Street, NW, Room 5T37
francis.reardon@aaa.army.mil         Washington, DC 20548
                                     daceyr@gao.gov
Richard A. Leach
Auditor General                      Sheila Conley
U.S. NAVAL AUDIT SERVICE             OFFICE OF MANAGEMENT AND BUDGET
Washington Navy Yard, Building 219   NEOB, Room 6025
1006 Beatty Place, SE                725 17th Street, NW
Washington, DC 20374-5005            Washington, DC 20503
leach.richard@hq.navy.mil            sconley@omb.eop.gov
[This page intentionally left blank.]
                                                                                       Carmichael
                                                                              Brasher Tuvell
Certified                           Public                    A c c o u n t a n t s & Company

                                                          Table of Contents

Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

I.        A.         Independent Auditors' Report on the Schedule of Actuarial Liability,
                           Net Intra-Governmental Accounts Receivable and Benefit Expense . . . . . 1

          B.         Schedule of Actuarial Liability, Net Intra-Governmental Accounts
                           Receivable and Benefit Expense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

II.       A.         Independent Accountants' Report on Applying Agreed-Upon Procedures . . . . . . 7

          B.         Schedules

                     1.         Schedule of Actuarial Liability by Agency . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     2.         Schedule of Net Intra-Governmental Accounts Receivable by Agency . . 11

                     3.         Schedule of Benefit Expense by Agency . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          C.         Agreed-Upon Procedures and Results
                     Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    15
                     Actuarial Liability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      16
                     Net Intra-Governmental Accounts Receivable . . . . . . . . . . . . . . . . . . . . . . . . . . .                           23
                     Benefit Expense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      25

III.      A.         Independent Service Auditors' Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     27
          B.         Division of Federal Employees' Compensation’s
                            Policies and Procedures
                     Overview of Services Provided . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                29
                     Overview of Control Environment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    33
                     Overview of Transaction Processing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   36
                     Overview of Computer Information Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           42
                     Control Objectives and Related Policies and Procedures . . . . . . . . . . . . . . . . . . .                               45
                     User Control Considerations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              45

          C.         Information Provided by the Service Auditor
                     Tests of Control Environment Elements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      46
                     Sampling Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             46
                     Control Objectives, Related Policies and Procedures,
                            and Tests of Described Policies and Procedures . . . . . . . . . . . . . . . . . . . .                              51
                            General Computer Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   52
                            Transaction Processing Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     66
[This page intentionally left blank.]
                                     ACRONYMS



ACPS      Automated Compensation Payment System
ADP       Automatic Data Processing
AID       Agency for International Development
BPS       Bill Payment System
BLS       Bureau of Labor Statistics
CBS       Chargeback System
CDSI      Computer Data System, Inc.
CE        Claims Examiner
CFO       Chief Financial Officer
CFR       Code of Federal Regulations
CMF       Case Management File System
COLA      Cost of Living Allowance
COP       Continuation of Pay
CPI       Consumer Price Index
CPI-U     Consumer Price Index for all Urban Consumers
CPI-Med   Consumer Price Index for Medical
DBMS      Data Based Management System
DITMS     Division of Information Technology Management and Services
DCE       Designated Claims Examiner
DD        District Director
DFEC      Division of Federal Employees' Compensation
DMA       District Medical Advisor
DMD       District Medical Director
DO        District Office
DOL       United States Department of Labor
DOLAR$    Department of Labor Accounting and Related Systems
DPPS      Division of Planning, Policy and Standards
DRP       Disaster Recovery Plan
EDP       Electronic Data Processing
EPA       Environmental Protection Agency
ESA       Employment Standards Administration
FCS       Fund Control System
FECA      Federal Employees' Compensation Act
FEMA      Federal Emergency Management Agency
FISCAM    Federal Information System Controls Application Manual
FMFIA     Federal Managers' Financial Integrity Act
GSA       General Services Administration




                                           i
                                     ACRONYMS


HBI       Health Benefit Insurance
HHS       U.S. Department of Health and Human Services
HUD       U.S. Department of Housing and Urban Development
IBNR      Incurred But Not Reported
IS        Information Systems
LBP       Liability Benefits Paid (ratio)
LWEC      Loss of Wage Earning Capacity
NASA      National Aeronautics and Space Administration
NRC       Nuclear Regulatory Commission
NSF       National Science Foundation
OIG       Office of Inspector General
OLI       Optional Life Insurance
OMAP      Office of Management and Planning
OMB       Office of Management and Budget
OPAC      On-line Payment and Collection System
OPM       Office of Personnel Management
OWCP      Office of Workers' Compensation Programs
RS        Rehabilitation Specialist
SAS 70    Statement on Auditing Standards, Number 70
SBA       Small Business Administration
SCE       Senior Claims Examiner
SDLC      System Development Life Cycle
SFFAS     Statement of Federal Financial Accounting Standards
SOL       Solicitor of Labor
SSA       Social Security Administration
SunGard   SunGard Computer Services, Inc.
TTD       Temporary Total Disability
U.S.C.    United States Code
USPS      United States Postal Service
VA        U.S. Department of Veterans Affairs




                                            ii
                                                                    Carmichael
                                                               Brasher Tuvell
Certified                  Public              A c c o u n t a n t s & Company
                                                                           678-443-9200
                                                                 Facsimile 678-443-9700
                                                                       www.cbtcpa.com


                                    SECTION IA
                       INDEPENDENT AUDITORS' REPORT ON THE
                         SCHEDULE OF ACTUARIAL LIABILITY,
                  NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                               AND BENEFIT EXPENSE

D. Cameron Findlay, Deputy Secretary of Labor
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget and Other Specified Agencies:

We have audited the accompanying Schedule of Actuarial Liability, Net Intra-Governmental Accounts
Receivable and Benefit Expense (the Schedule) of the Federal Employees' Compensation Act Special
Benefit Fund as of and for the year ended September 30, 2001. This schedule is the responsibility of the
U.S. Department of Labor's management. Our responsibility is to express an opinion on this schedule
based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America, Government Auditing Standards, issued by the Comptroller General of the United States, and
the applicable provisions of OMB Bulletin 01-02, Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform the audit to obtain reasonable assurance about whether
the Schedule of Actuarial Liability, Net Intra-Governmental Accounts Receivable and Benefit Expense is
free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the Schedule of Actuarial Liability, Net Intra-Governmental Accounts
Receivable and Benefit Expense. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall schedule presentation. We
believe that our audit provides a reasonable basis for our opinion.

In our opinion, the Schedule of Actuarial Liability, Net Intra-Governmental Accounts Receivable and
Benefit Expense referred to above presents fairly, in all material respects, the actuarial liability, net intra-
governmental accounts receivable and benefit expense of the Federal Employees' Compensation Act Special
Benefit Fund as of and for the year ended September 30, 2001, in conformity with accounting principles
generally accepted in the United States of America.

This report is intended solely for the information and use of the U.S. Department of Labor, General
Accounting Office, Office of Management and Budget and those Federal agencies listed in Section IIB of
this report and is not intended to be and should not be used by anyone other than these specified parties.



November 26, 2001


1647     Mount      Vernon       Road,      Dunwoody        Exchange,        Atlanta,     Georgia       30338
                                                  1
                              SECTION IB
                     U.S. DEPARTMENT OF LABOR
              EMPLOYMENT STANDARDS ADMINISTRATION
              FEDERAL EMPLOYEES' COMPENSATION ACT
                        SPECIAL BENEFIT FUND
                 SCHEDULE OF ACTUARIAL LIABILITY,
         NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                        AND BENEFIT EXPENSE
          AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2001

                                                                             (Dollars in
                                                                            Thousands)


Actuarial Liability                                                        $ 24,994,376


Net Intra-governmental Accounts Receivable                                 $ 3,365,092


Benefit Expense                                                            $ 5,145,882




                       See independent auditors' report.
           The accompanying notes are an integral part of this schedule.

                                        2
                              SECTION IB
            NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
            NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                         AND BENEFIT EXPENSE
            AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2001

1.   SIGNIFICANT ACCOUNTING POLICIES

     a.   Basis of Presentation

          This schedule has been prepared to report the actuarial liability, net intra-governmental
          accounts receivable and benefit expense of the Federal Employees' Compensation Act
          (FECA) Special Benefit Fund, as required by the CFO Act of 1990. The Special Benefit
          Fund was established by the Federal Employees' Compensation Act, to provide for the
          financial needs resulting from compensation and medical benefits authorized under the Act.
          The U.S. Department of Labor (DOL), Employment Standards Administration (ESA) is
          charged with the responsibility of operating the Special Benefit Fund under the provisions
          of the Act. The schedule has been prepared from the accounting records of the Special
          Benefit Fund.

          The actuarial liability, net intra-governmental accounts receivable and benefit expense of
          the Special Benefit Fund have been considered specified accounts for the purpose of this
          special report and have been reported thereon. ESA is responsible for providing annual
          data to the CFO Act and other specified agencies. FECA's annual data is defined as the
          actuarial liability of the Special Benefit Fund. This annual data is necessary for the CFO
          Act and other specified agencies to support and prepare their respective financial
          statements.

          The actuarial liability for future workers' compensation benefits is an accrued estimate as
          of September 30, 2001. The net intra-governmental accounts receivable is the amount due
          from Federal agencies for benefit payments paid to employees of the employing agency. The
          net intra-governmental accounts receivable includes amounts which were billed to the
          employing agencies through June 30, 2001, but not paid as of September 30, 2001,
          including prior years, if applicable, plus the accrued receivable for benefit payments not yet
          billed for the period July 1, 2001 through September 30, 2001, less credits due from the
          public.

          Benefit payments are intended to provide income and medical cost protection to covered
          Federal civilian employees injured on the job, employees who have incurred a work-related
          occupational disease and beneficiaries of employees whose death is attributable to job-
          related injury or occupational disease. The actuarial liability is computed from the benefits
          paid history. The benefits paid, inflation and interest rate assumptions, and other economic
          factors are applied to the actuarial model which calculates the liability estimate.




                                                3
                                 SECTION IB
               NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
               NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                            AND BENEFIT EXPENSE
               AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2001

     b.     Basis of Accounting

            The accounting and reporting policies of the Federal Employees' Compensation Act Special
            Benefit Fund relating to the Schedule conforms to accounting principles generally accepted
            in the United States.

            The actuarial liability for future workers' compensation benefits is an accrued estimate as
            of September 30, 2001. Net intra-governmental accounts receivable is the total of the
            amounts billed to Federal agencies which had not yet been paid plus the accrued receivable
            for benefit payments not yet billed for the period July 1, 2001 through September 30, 2001,
            less credits due from the public. Benefit expense consists of payments paid and accrued for
            the period from October 1, 2000 to September 30, 2001, plus the net change in the actuarial
            liability for the year.

            Statement of Federal Financial Accounting Standards (SFFAS) Number 5, Section 138,
            Accounting for Liabilities of the Federal Government, requires that a contingent liability
            be recognized when three conditions are met. First, a past event or exchange transaction
            has occurred. Second, a future outflow or other sacrifice of resources is probable. Finally,
            the future outflow or sacrifice of resources is measurable. Claims which had been incurred
            but not reported (IBNR) are included in the actuarial liability. Therefore, the actuarial
            liability represents the estimated present value of future compensation and medical
            payments based upon approved claims, plus a component for incurred but not reported
            claims.


2.   ACTUARIAL LIABILITY (FUTURE WORKERS' COMPENSATION BENEFITS)

     The Special Benefit Fund was established under the authority of the Federal Employees'
     Compensation Act to provide income and medical cost protection to covered Federal civilian
     employees injured on the job, employees who have incurred a work-related occupational disease
     and beneficiaries of employees whose death is attributable to a job-related injury or occupational
     disease. The fund is reimbursed by other Federal agencies for the FECA benefit payments made
     on behalf of their workers.

     The actuarial liability for future workers’ compensation reported on the schedule includes the
     expected liability for death, disability, medical and miscellaneous costs for approved cases. The
     liability is determined using a method that utilizes historical benefit payment patterns related to a
     specific incurred period to predict the ultimate payments related to that period.



                                                  4
                                 SECTION IB
               NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
               NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                            AND BENEFIT EXPENSE
               AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2001

     Consistent with past practice, these projected annual benefit payments have been discounted to
     present value using the Office of Management and Budget's (OMB) economic assumptions for 10-
     year Treasury notes and bonds.

     The interest rate assumptions utilized for discounting were as follows:

                                    5.21% in year 1 and thereafter.

     To provide more specifically for the effects of inflation on the liability for future workers'
     compensation benefits, wage inflation factors (cost of living allowance or COLA) and medical
     inflation factors (consumer price index-medical or CPI-Med) are applied to the calculation of
     projected future benefits. These factors are also used to adjust the historical payments to current
     year constant dollars.

     The compensation COLA and the CPI-Med used in the model's calculation of estimates were as
     follows:

             FY        COLA         CPI-Med          FY       COLA         CPI-Med
            1990       4.43%        8.40%            1998     2.70%        2.77%
            1991       5.03%        9.36%            1999     1.53%        3.50%
            1992       5.00%        7.96%            2000     1.97%        3.70%
            1993       2.83%        6.61%            2001     2.93%        4.42%
            1994       2.77%        5.27%            2002     3.33%        4.44%
            1995       2.57%        4.72%            2003     3.00%        4.15%
            1996       2.63%        3.99%            2004     2.56%        4.09%
            1997       2.77%        3.11%            2005+    2.50%        4.09%

     The medical inflation rates presented are the average of published quarterly rates covering the
     benefit payment fiscal year. The compensation inflation rates presented are the blended rates used
     by the model rather than the published March 1 FECA-COLA factor from which the blended rates
     are derived.

3.   NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

     Net intra-governmental accounts receivable is the total of the amounts billed to Federal agencies
     which had not yet been paid as of September 30, 2001, plus the accrued receivable for benefit
     payments not yet billed for the period July 1, 2001 through September 30, 2001, less applicable
     credits. The Special Benefit Fund also receives an appropriation for the special cases where
     employing agencies are not charged for compensation or medical bill payments.


                                                 5
                                 SECTION IB
               NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
               NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                            AND BENEFIT EXPENSE
               AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2001

     Other agencies for whom the Fund does not receive an appropriation recognize the amount of the
     current chargeback billing as an expense. Some of these agencies receive, as part of their annual
     appropriation, funding for FECA benefits.

     In addition, certain corporations and instrumentalities are assessed under the Federal Employees'
     Compensation Act for a fair share of the costs of administering disability claims filed by their
     employees. The fair share costs are included in the net intra-governmental accounts receivable.

4.   BENEFIT EXPENSE

     Benefits paid and accrued consists of benefit payments for compensation for lost wages, schedule
     awards, death benefits and medical benefits paid and accrued under FECA for the period October
     1, 2000 through September 30, 2001, plus the net change in the actuarial liability for the year. The
     amount paid and accrued for compensation for lost wages, schedule awards, death benefits and
     medical benefits totaled $2.201 billion. The net change in the actuarial liability for the year was
     $2.945 billion. The total amount of benefit expense for the fiscal year was $5.146 billion.




                                                  6
                                                                   Carmichael
                                                             Brasher Tuvell
Certified                  Public             A c c o u n t a n t s & Company
                                                                        678-443-9200
                                                              Facsimile 678-443-9700
                                                                    www.cbtcpa.com


                                      SECTION IIA
                          INDEPENDENT ACCOUNTANTS' REPORT
                         ON APPLYING AGREED-UPON PROCEDURES


D. Cameron Findlay, Deputy Secretary of Labor
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget and Other Specified Agencies:

We have performed the procedures described in the Agreed-Upon Procedures and Results, Section IIC,
which were agreed to by the U.S. Department of Labor, General Accounting Office, Office of Management
and Budget, the CFO Act agencies and other specified agencies listed in the Schedules of Actuarial
Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit Expense by
Agency, Section IIB-1, 2 and 3 (the parties specified) of this special report, solely to assist you and such
agencies with respect to the accompanying Schedules of Actuarial Liability by Agency, Net Intra-
Governmental Accounts Receivable by Agency and Benefit Expense by Agency (Section IIB 1, 2 and 3,
respectively) of the Federal Employees' Compensation Act Special Benefit Fund as of and for the year
ended September 30, 2001.

The Department of Labor is responsible for the Schedules (Section IIB 1, 2 and 3). The Schedule of
Actuarial Liability by Agency at September 30, 2001, represents the present value of the estimated future
benefits to be paid pursuant to the Federal Employees' Compensation Act. The Schedule of Net Intra-
Governmental Accounts Receivable by Agency is the total of the amounts billed to Federal agencies
through June 30, 2001 which had not yet been paid as of September 30, 2001 plus the accrued receivable
for benefit payments not yet billed for the period July 1, 2001 through September 30, 2001, less the credits
due from the public . The Schedule of Benefit Expense by Agency is the benefits paid and accrued for the
fiscal year ended September 30, 2001, plus the net change in the actuarial liability for the year.

This agreed-upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants and with Government Auditing
Standards, issued by the Comptroller General of the United States.

An actuary was engaged to perform certain procedures relating to the actuarial liability as described in
Section IIC.




1647     Mount      Vernon      Road,     Dunwoody        Exchange,       Atlanta,     Georgia      30338
                                                7
We express no opinion on the Federal Employees' Compensation Act Special Benefit Fund's internal
controls over financial reporting or any part thereof.

The sufficiency of the procedures is solely the responsibility of the parties specified in this report.
Consequently, we make no representation regarding the sufficiency of the procedures described in Section
IIC either for the purpose for which this report has been requested or for any other purpose. Our agreed-
upon procedures and results are presented in Section IIC of this report.

We were not engaged to, and did not perform an audit of the Schedules of Actuarial Liability by Agency,
Net Intra-Governmental Accounts Receivable by Agency and Benefit Expense by Agency, the objective
of which is the expression of an opinion on the Schedules or a part thereof. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report should not be used by those who have not agreed to the procedures and taken responsibility
for the sufficiency of the procedures for their purposes. This report is intended solely for the information
and use of the U.S. Department of Labor, General Accounting Office, Office of Management and Budget
and those Federal agencies (listed in Section IIB) of this report and is not intended to be and should not
be used by anyone other than these specified parties.



November 26, 2001




                                                     8
                                     SECTION IIB-1
                             U.S. DEPARTMENT OF LABOR
                      EMPLOYMENT STANDARDS ADMINISTRATION
                       FEDERAL EMPLOYEES' COMPENSATION ACT
                                SPECIAL BENEFIT FUND
                    SCHEDULE OF ACTUARIAL LIABILITY BY AGENCY
                              AS OF SEPTEMBER 30, 2001


                                                                Actuarial
                                                                Liability
AGENCY                                                    (Dollars in thousands)
Agency for International Development (AID)                              $30,905

Environmental Protection Agency (EPA)                                    39,633
Federal Emergency Management Agency (FEMA)                               25,241
General Services Administration (GSA)                                   198,853
National Aeronautics and Space Administration (NASA)                     69,672
National Science Foundation (NSF)                                           1,806
Nuclear Regulatory Commission (NRC)                                      10,849
Office of Personnel Management (OPM)                                     13,752
United States Postal Service (USPS)                                   7,399,470
Small Business Administration (SBA)                                      32,255
Social Security Administration (SSA)                                    278,345
Tennessee Valley Authority                                              657,530
U. S. Department of Agriculture                                         878,963
U. S. Department of the Air Force                                     1,529,893

U. S. Department of the Army                                          1,955,183
U. S. Department of Commerce                                            223,716
U. S. Department of Defense - other                                     954,116

U. S. Department of Education                                            22,723

U. S. Department of Energy                                               95,748
U. S. Department of Health and Human Services                           293,355

U. S. Department of Housing and Urban Development                        84,758
U. S. Department of the Interior                                        663,471

U. S. Department of Justice                                          $1,193,590


                                                    9
                                                  SECTION IIB-1
                                          U.S. DEPARTMENT OF LABOR
                                   EMPLOYMENT STANDARDS ADMINISTRATION
                                    FEDERAL EMPLOYEES' COMPENSATION ACT
                                             SPECIAL BENEFIT FUND
                                 SCHEDULE OF ACTUARIAL LIABILITY BY AGENCY
                                           AS OF SEPTEMBER 30, 2001


                                                                                                                 Actuarial
                                                                                                                 Liability
    AGENCY                                                                                                  (Dollars in thousands)
    U. S. Department of Labor                                                                                             250,278

    U. S. Department of the Navy                                                                                        2,968,541
    U. S. Department of State                                                                                              56,645
    U. S. Department of Transportation                                                                                  1,202,987
    U. S. Department of the Treasury                                                                                    1,076,106
    U. S. Department of Veterans Affairs (VA)                                                                           1,812,675
    Other agencies 1                                                                                                      973,317
    Total - all agencies (Memo Only)                                                                                  $24,994,376




1
    Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.

                                                                                10
                                                      SECTION IIB-2
                                              U.S. DEPARTMENT OF LABOR
                                       EMPLOYMENT STANDARDS ADMINISTRATION
                                        FEDERAL EMPLOYEES' COMPENSATION ACT
                                                 SPECIAL BENEFIT FUND
                                        SCHEDULE OF NET INTRA-GOVERNMENTAL
                                           ACCOUNTS RECEIVABLE BY AGENCY
                                               AS OF SEPTEMBER 30, 2001

                                                                                                             Amounts                     Net Intra-
                                                                                          Amounts           Expended        Credits     Governmental
                                                                                         Billed Not          Not Yet       Due from       Accounts
                                                                                         Yet Paid(1)         Billed (2)   Public (3)    Receivable(4)
                                                                                         (Dollars in        (Dollars in   (Dollars in    (Dollars in
 AGENCY                                                                                  thousands)         thousands)    thousands)     thousands)

 Agency for International Development                                                            $6,591           $854         ($30)           $7,415

 Environmental Protection Agency                                                                   6,807           993           (33)           7,767

 Federal Emergency Management Agency                                                               4,762           668           (24)           5,406

 General Services Administration                                                                 32,806          4,636         (162)           37,280

 National Aeronautics and Space Administration                                                   13,651          1,980           (71)          15,560

 National Science Foundation                                                                          267            31           (1)             297

 Nuclear Regulatory Commission                                                                     1,547           241            (8)           1,780

 Office of Personnel Management                                                                    2,110           307           (10)           2,407

 United States Postal Service                                                                    55,092        221,770       (7,095)          269,767

 Small Business Administration                                                                     4,606           731           (24)           5,313

 Social Security Administration                                                                  39,753          6,039         (195)           45,597

 Tennessee Valley Authority                                                                      67,046         17,680         (585)           84,141

 U. S. Department of Agriculture                                                               131,508          19,347         (657)          150,198

 U. S. Department of the Air Force                                                             262,240          38,377       (1,320)          299,297

 U. S. Department of the Army                                                                  268,863          39,777       (1,334)          307,306

 U. S. Department of Commerce                                                                    32,437          5,090         (209)           37,318

 U. S. Department of Defense - other                                                           159,336          22,706         (790)          181,252

 U. S. Department of Education                                                                     3,278         1,541           (18)           4,801

 U. S. Department of Energy                                                                      14,773          2,625           (90)          17,308

 U. S. Department of Health and Human Services                                                   42,283          6,474         (212)           48,545

 U. S. Department of Housing and Urban Development                                               14,596          2,035           (73)          16,558

1 Amounts billed through June 30, 2001 (including prior years) but not yet paid as of September 30, 2001.
2 Amounts expended but not yet billed for the period July 1, 2001 through September 30, 2001.
3 Allocation of credits due from public through September 30, 2001.
4 Total amount due to the fund for each agency as of September 30, 2001.


                                                                                        11
                                                      SECTION IIB-2
                                              U.S. DEPARTMENT OF LABOR
                                       EMPLOYMENT STANDARDS ADMINISTRATION
                                        FEDERAL EMPLOYEES' COMPENSATION ACT
                                                 SPECIAL BENEFIT FUND
                                        SCHEDULE OF NET INTRA-GOVERNMENTAL
                                           ACCOUNTS RECEIVABLE BY AGENCY
                                               AS OF SEPTEMBER 30, 2001

                                                                                                             Amounts                     Net Intra-
                                                                                          Amounts           Expended        Credits     Governmental
                                                                                         Billed Not          Not Yet       Due from       Accounts
                                                                                         Yet Paid(1)         Billed (2)   Public (3)    Receivable(4)
                                                                                         (Dollars in        (Dollars in   (Dollars in    (Dollars in
 AGENCY                                                                                  thousands)         thousands)    thousands)     thousands)

 U. S. Department of the Interior                                                                98,923         14,497         (495)          112,925

 U. S. Department of Justice                                                                   175,616          26,531         (898)          201,249

 U. S. Department of Labor                                                                       47,169          7,823         (262)           54,730

 U. S. Department of the Navy                                                                  488,466          68,422       (2,431)          554,457

 U. S. Department of State                                                                       15,745          2,349           (80)          18,014

 U. S. Department of Transportation                                                            196,181          28,854         (979)          224,056

 U. S. Department of the Treasury                                                              162,102          26,088         (822)          187,368

 U. S. Department of Veterans Affairs                                                          288,264          43,373       (1,437)          330,200

 Other agencies                                                                                116,264          21,127         (611)          136,780

 Total - all agencies (Memo Only)                                                         $2,753,082          $632,966     ($20,956)       $3,365,092




1 Amounts billed through June 30, 2001 (including prior years) but not yet paid as of September 30, 2001.
2 Amounts expended but not yet billed for the period July 1, 2001 through September 30, 2001.
3 Allocation of credits due from public through September 30, 2001.
4 Total amount due to the fund for each agency as of September 30, 2001.


                                                                                        12
                                      SECTION IIB-3
                              U.S. DEPARTMENT OF LABOR
                       EMPLOYMENT STANDARDS ADMINISTRATION
                        FEDERAL EMPLOYEES' COMPENSATION ACT
                                 SPECIAL BENEFIT FUND
                       SCHEDULE OF BENEFIT EXPENSE BY AGENCY
                   AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2001


                                                          Benefits     Change in        Total
                                                          Paid and      Actuarial      Benefit
                                                          Accrued       Liability     Expense
                                                         (Dollars in   (Dollars in   (Dollars in
AGENCY                                                   thousands)    thousands)    thousands)
Agency for International Development                         $2,964         $1,086         $4,050

Environmental Protection Agency                               3,333          5,960          9,293

Federal Emergency Management Agency                           2,381          3,245          5,626

General Services Administration                               16,228        19,857         36,085

National Aeronautics and Space Administration                  7,339         8,091         15,430

National Science Foundation                                      108            39            147

Nuclear Regulatory Commission                                    839         2,619          3,458

Office of Personnel Management                                 1,044         1,016          2,060

United States Postal Service                                 738,581     1,101,040      1,839,621

Small Business Administration                                  2,359         1,509          3,868

Social Security Administration                                20,358        38,931         59,289

Tennessee Valley Authority                                    60,746        71,142        131,888

U. S. Department of Agriculture                               67,353       110,431        177,784

U. S. Department of the Air Force                            133,926       192,692        326,618

U. S. Department of the Army                                 170,515       223,505        394,020

U. S. Department of Commerce                                  20,368        68,069         88,437

U. S. Department of Defense - other                           64,679        78,010        142,689

U. S. Department of Education                                  1,797         3,903          5,700

U. S. Department of Energy                                     9,158        11,263         20,421

U. S. Department of Health and Human Services                 21,513        29,462         50,975

U. S. Department of Housing and Urban Development              7,373        10,105         17,478

U. S. Department of the Interior                              50,716        78,641        129,357

U. S. Department of Justice                                   90,953     $208,077         299,030


                                                    13
                                                 SECTION IIB-3
                                         U.S. DEPARTMENT OF LABOR
                                  EMPLOYMENT STANDARDS ADMINISTRATION
                                   FEDERAL EMPLOYEES' COMPENSATION ACT
                                            SPECIAL BENEFIT FUND
                                  SCHEDULE OF BENEFIT EXPENSE BY AGENCY
                              AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2001


                                                                                                 Benefits           Change in        Total
                                                                                                 Paid and            Actuarial      Benefit
                                                                                                 Accrued             Liability     Expense
                                                                                                (Dollars in         (Dollars in   (Dollars in
    AGENCY                                                                                      thousands)          thousands)    thousands)
    U. S. Department of Labor                                                                          20,973            28,998         49,971

    U. S. Department of the Navy                                                                      248,162           303,107        551,269

    U. S. Department of State                                                                               6,925        6,729          13,654

    U. S. Department of Transportation                                                                 99,446           116,242        215,688

    U. S. Department of the Treasury                                                                   85,117           160,468        245,585

    U. S. Department of Veterans Affairs                                                              147,582           227,644        375,226

    Other agencies (1)                                                                                 98,075         (166,910)        (68,835)

    Total - all agencies (Memo Only)                                                             $2,200,911          $2,944,971     $5,145,882




1
    Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.

                                                                                14
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS

SUMMARY

Our objective was to perform specified agreed-upon procedures to the Schedules of Actuarial Liability by
Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit Expense by Agency as of
and for the year ended September 30, 2001, as summarized below:

C      Applied certain agreed-upon procedures as detailed in this section of the report to the estimated accrued actuarial
       liability of future FECA benefit payments as of September 30, 2001. A certified actuary was engaged to review the
       calculation of the actuarial liability.

C      Applied certain agreed-upon procedures as specified in this section of the report to the net intra-governmental
       accounts receivable billings and balances for the period ending September 30, 2001.

C      Applied certain agreed-upon procedures as outlined in this section of the report to the compensation and medical
       payments for the period October 1, 2000 to April 30, 2001 (sampling period), and for the period October 1, 2000
       to September 30, 2001, and to DOL’s cut-off process. Calculated the change in the actuarial liability from the prior
       year to the current year.

These procedures were performed in accordance with the attestation standards established by the American
Institute of Certified Public Accountants and with Government Auditing Standards, issued by the
Comptroller General of the United States.

Each section of this agreed-upon procedures report has a general overview of the section followed by a
detailed listing of the agreed-upon procedures performed and the results of the procedures for each section
of this engagement.

In summary, we applied the following agreed-upon procedures:

Actuarial Liability -Consistent with prior years, the actuarial liability was evaluated by an independent
actuary. Agreed-upon procedures were performed on the methodology, assumptions and information used
in the model. The 2001 benefit payments predicted by the model for 2000 were compared to actual
payments made in 2001,and ratios were calculated that compared the change in the liability by agency to
the change in the aggregate liability and the agency groupings. We also, calculated the liability to benefits
paid ratio by agency.

Net Intra-Governmental Accounts Receivable - Confirmation letters regarding the accounts receivable as
of September 30, 2001, were mailed and confirmed with the CFO Act and other selected agencies.
Agreed-upon procedures were performed on FY 2001 accounts receivable as compared with FY 2000
accounts receivable with regards to new receivables, collections, write-offs, and chargebacks and
explanations were requested for changes of over 5 percent.

Benefit Expense - Agreed-upon procedures were applied to the benefit payments made during the current
fiscal year by district office, by strata, and by agency as compared to benefit payments of the prior fiscal
year and to DOL’s cut-off process. Calculated the change in the actuarial liability from the prior year to
the current year.




                                                          15
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS


ACTUARIAL LIABILITY

General Overview
The actuarial model and the resulting actuarial liability were evaluated by an independent actuary. The
independent actuary issued a report which stated the aggregate actuarial liability was reasonably stated in
accordance with Actuarial Standards. We performed agreed-upon procedures on the calculation of the
actuarial liability by employing agency. Our procedures included considerations of how the change in each
agency's liability related to the change in the total estimate, its own history, its group, and to the benefit
payments made during the current year.

Procedures and Results

       Agreed-Upon Procedures Performed                                   Results of Procedures

 Engaged a certified actuary to review the           The actuary’s evaluation of the methodology used in the model
 calculations of the actuarial liability as to:      did not disclose any specific concerns regarding the
 C        Whether or not the assumptions used by     methodology and assumptions.
          the model were appropriate for the
          purpose and method to which they were      The actuary concluded that the model calculated a liability that
          applied.                                   was generally reasonable under the method and assumptions
 C        Whether or not the assumptions were        used. The actuary tested the calculations included in the model
          reasonable representations for the         and found that they were performed consistent with the model's
          underlying phenomena which they            stated assumptions.
          model.
 C        Whether or not such assumptions were
          being applied correctly and if other
          calculations within the model were being
          performed in a manner as to generate
          appropriate results.
 C        Whether or not changes in the
          assumptions over the years affected
          trends.
 C        Whether or not tests of calculations
          provided a reasonable basis regarding
          the integrity of the model as a whole.
 C        Whether or not the overall results were
          reasonable.




                                                         16
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS


      Agreed-Upon Procedures Performed                                    Results of Procedures

Confirmed with the American Academy of               The actuarial specialist was accredited and in good standing
Actuaries and the Casualty Actuarial Society as to   with the American Academy of Actuaries and the Casualty
whether the actuary was accredited and in good       Actuarial Society. The actuarial consulting firm certified that
standing with the associations. Obtained a           they were independent from DOL-FECA. The actuarial
statement of independence from the actuarial         consulting firm provided references stating experience in the
firm. Obtained two references from clients of the    type of work required for this engagement. The references
actuarial firm as to the actuary's work.             provided confirmed the work of the actuarial firm.

Compared the economic assumptions used by the        The model utilizes estimates of prospective inflation and interest
model for 2000 to the assumptions used during        rates to project and then discount future benefit payments. As
the current year.                                    published by OMB, prospective interest rates of 10-year
                                                     Treasury bills decreased from 6.3% for the prior year to 5.21%
                                                     for the current year. The liability was approximately 11%
                                                     higher due to the decrease in the interest rate from the prior
                                                     year.

                                                     The short-term increases in both inflation factors predicted were
                                                     offset by minor decreases in the long-term predictions. For
                                                     instance, the Bureau of Labor Statistics’ (BLS) estimates of
                                                     COLA for the current period increased from 1.97% last year to
                                                     3.33% this year. However, starting in 2004, BLS predicts a
                                                     recurring inflation factor of 2.5%, which is a .1% lower
                                                     recurring factor than had been predicted last year for the long-
                                                     term. This pattern repeats itself with the current medical
                                                     inflation rate increasing from 3.69% to 4.44% for 2002, offset
                                                     by a recurring factor of 4.09% starting in 2004, .07% lower
                                                     than the long-term factors predicted last year (4.16%). The
                                                     change in inflation factors resulted in an estimate approximately
                                                     .21% lower than would have been estimated using the 2000
                                                     estimated inflation rates which indicates that the effect of the
                                                     change in inflation rates is minimal.

Compared the interest and inflation rates used by    We determined that the interest rates used in the model were the
the model to the source documents from which         same interest rates stated in OMB’s publication.
they were derived.
                                                     We determined that the inflation rates used in the model were
                                                     derived from the BLS indices cited with a minor exception, as
                                                     described below. The rates from the BLS indices were adjusted
                                                     to accommodate the difference between the year end of the
                                                     actuarial model and the year end of the cited rates. We
                                                     recalculated the blended rates without exception.

                                                     In updating the settings page, data entry inadvertently carried
                                                     forward the wrong historic inflation rate for year 2000 which
                                                     resulted in a .15% overstatement in the actuarial liability. The
                                                     range of impact by agency varied from .07% to .23%.




                                                         17
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


      Agreed-Upon Procedures Performed                                    Results of Procedures

Compared the actuarial liability by agency as       The liability reported on the Memorandum issued to the CFOs
reported in a Memorandum to the CFOs of             of Executive Departments of the unaudited estimated actuarial
Executive Departments of the unaudited              liability for future workers' compensation benefits agreed with
estimated actuarial liability for future workers'   the liability calculated by the model and reported on the
compensation benefits to the liability calculated   Projected Liability Reports.
by the model and reported on the Projected
Liability Reports.

Compared by agency and in aggregate, the 1998-      The amounts in aggregate agreed without exception. By agency,
2001 benefit payments downloaded to the model       approximately $168,000 of 1998 DOT benefit payments had
with the amount of benefit payments reflected in    been downloaded as "Other Agencies". This amount represented
the Summary Chargeback Billing Report, to           approximately .17% of DOT's 1998 payments. No other
determine whether the benefit payment data used     exceptions were noted.
by the model was the same data upon which
agreed-upon procedures for benefit payments
were performed.

Determined the basis of the agency groupings and    The grouping was determined premised on a claim duration
perform tests to establish the consistency of the   probability study performed by a DOL economist. Both the
grouping. Determined the impact of such             designers of the model and the independent actuary agreed that
inclusion in a grouping.                            the study provided a basis for such groupings. The groupings in
                                                    the model agreed to the groupings in the study. The study
                                                    included data through 1991, and therefore, agencies newer to
                                                    FECA had not been studied. These agencies were placed in
                                                    Group III, whose average probability approximated the average
                                                    of the aggregate population. These agencies are AID, FEMA,
                                                    NSF, NRC, OPM, SBA, and SSA.

                                                    Group experience is used to develop the backfilling factors and
                                                    is factored into the loss development feature used to project the
                                                    pattern of future payments. Experience of the group would
                                                    calculate most significantly in smaller agencies.

                                                    The independent actuary has recommended a reduction in the
                                                    weighting factor associated with agency experience due both to
                                                    the age and completeness of the study upon which it was based
                                                    and certain aspects of group behavior.

                                                    The groupings for 2001 were consistent with 2000.




                                                         18
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS


      Agreed-Upon Procedures Performed                                     Results of Procedures

Calculated the change in the actuarial estimate by   The aggregate liability increased 14.95% over the prior year. By
agency and in aggregate. Identify those agencies     group, the increases ranged from 12.59% to 17.48%. Eight
that changed more than 5% of the aggregate           agencies were identified that increased by less than 8% or more
change.                                              than 18%. These agencies included NSF (2.21%), SBA (4.91%),
                                                     OPM (7.98%), AID (3.64), Education (20.74%), Commerce
                                                     (43.73%), NRC (31.82%), and Justice (21.11%).

                                                     An analysis of these agencies' benefit payments as a factor in
                                                     estimating their future liability produced results within 10% of
                                                     the model's estimate for Education, Commerce, OPM, NRC,
                                                     and Justice indicating that the disproportionate increase in these
                                                     agencies' liabilities to the overall increase was due in part to the
                                                     change in the agencies’ benefit payments.

                                                     The indication that the remaining three agencies (NSF, AID and
                                                     SBA) might be understated based on their disproportionately
                                                     low increase was contradicted by other procedures performed.
                                                     For example, the liability to benefits paid ratio (LBP) for NSF
                                                     and SBA were 16.3 and 13.3, both above the average ratio for
                                                     the model which was 11.6. AID was lower than average with an
                                                     LBP at 10.3, but not outside the representative range of values.
                                                     The comparison of the actual benefit payments to model-
                                                     projected payments indicated that the model projected within
                                                     5% for both AID and SBA. NSF's actual benefit payments were
                                                     lower than projected.




                                                          19
                                      SECTION IIC
                           AGREED-UPON PROCEDURES & RESULTS


      Agreed-Upon Procedures Performed                                Results of Procedures

Compared the benefit payments predicted by the   Despite a 5.16% increase in actual benefit payments, last year’s
model for year 2001 to the actual benefit        model projected benefit payments 10% higher than actually
payments. Identified the agencies where the      occurred during 2001. The increase in payments during
model computed benefit payments that varied by   FY2001, consisted of a 9.88% increase in medical benefit
more than 20% from actual benefit payments       payments and a 3.4% increase in compensation benefit
made during the 2001 year.                       payments. In constant dollars, the payments increased 1.89%,
                                                 mostly as a result of increases in medical payments. The
                                                 aggregate trend of the last four years in constant dollars is
                                                 1.21% annually, consisting principally of increases in medical
                                                 payments.

                                                 Approximately 73% of the agencies had projected benefit
                                                 payments that varied by less than 15%, with these agencies
                                                 having a range from .33% to 38.26%. The following three
                                                 agencies’ actual payments varied from the projected benefit
                                                 payments by more than 20%: State (+38.26%), NSF (-26.4%),
                                                 and Justice (-20.63%).

                                                 State's benefit payment increase over the last four years in
                                                 constant dollars was approximately 7.6%. The model projected
                                                 payments of $5million for 2001, actual payments were
                                                 $7million for 2001 and the average annual constant dollar
                                                 payments over the last four years were $6million.

                                                 NSF's benefit payments increased during the previous two years
                                                 but decreased under 1997 payment levels during 2001 with a
                                                 31.18% decrease in constant dollars. Without the decrease, the
                                                 difference between the projected benefit payments and the actual
                                                 benefit payments would have been less than 20%. The model
                                                 projected payments of $150,360 for the 2001 year, slightly less
                                                 than the 2000 payments. Actual payments were $110,670 for the
                                                 year ended June 30, 2001. Average annual constant dollar
                                                 payments over the last four years were approximately $133,000.

                                                 Justice's benefit payment pattern increase over the last four
                                                 years in constant dollars was 6.5%. The model projected
                                                 payments of $115million for 2001. Actual payments were
                                                 $91million for the year ended June 30, 2001, which is
                                                 commensurate with increases in prior years. Average annual
                                                 constant dollar payments over the last four years were
                                                 $80million. The LBP ratio for Justice, while higher than the
                                                 average, is not outside the range of LBP ratios.




                                                     20
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


      Agreed-Upon Procedures Performed                                       Results of Procedures

Calculated the ratio of the agency liability to the   The liability to benefits paid ratio of the aggregate liability was
benefit payments (LBP) by agency and compared         approximately 11.6%. By group, the range of the ratio was from
this to the overall ratio and group ratio.            10.3% (Postal Service) to 13.5% (Group III). The following
Identified and sought explanation for those           agencies varied by more than 10% from their group's ratio and
agencies for which the ratio varied by more than      fell outside the range of group ratios: HHS (13.7%-Group I),
10% from their group ratio, and lay outside the       NSF (16.3%-Group III) , State (8.0%-Group IV), and
range of group averages.                              NASA (9.6%-Group IV).

                                                      Actual benefit payments for HHS were less than the projected
                                                      payments by 17.39% in a year when benefit payments were
                                                      consistent with trends. However, a predictive test of the future
                                                      liability that considered the change in the agency’s benefit
                                                      payments as factor in estimating the future liability of HHS was
                                                      within 2% of the model’s calculation, indicating consistency
                                                      with prior year estimate and the aggregate model behavior
                                                      pertaining to the change in economic assumptions.

                                                      NSF’s downward trend in 2001 benefit payments was not
                                                      representative of NSF’s payment history. NSF’s ratio falls
                                                      within an acceptable range if the average constant dollar
                                                      payments over the last four years is substituted as the
                                                      denominator. A predictive test of the future liability that
                                                      considered the change in the agency’s benefit payments as a
                                                      factor in estimating the future liability, resulted in a liability
                                                      19.15% lower than the model’s calculation.

                                                      Actual benefit payments were higher than predicted by 38.26%
                                                      and 13.59% for State and NASA, respectively. Also, a
                                                      predictive test of the future liability based on the change in the
                                                      agency’s benefit payments resulted in liabilities higher by
                                                      10.57% and 12.58% than the model calculated liabilities.

Compared the actuarial liability for the Postal       The actuarial liability computed for the Postal Service was
Service calculated by the model to the actuarial      23.81% higher than the Postal Service's independent
liability calculated by the Postal Service's          computation. Last year, FECA's model was 9.86% higher than
independent model.                                    the Postal Service’s model. The increase in the difference is
                                                      primarily due to the decrease in the interest rate used by FECA.
                                                      Using last year's economic assumptions, the FECA model would
                                                      have calculated a Postal Service liability 11.18% higher than the
                                                      Postal Service' independent computation. The Postal Service
                                                      has not varied their economic assumptions from last year. Using
                                                      the net effective interest rate used by the Postal Service in
                                                      FECA’s model results in FECA's liability being 7.31% higher
                                                      than the Postal Service calculation.

                                                      The Postal Service is not grouped in the model with any other
                                                      agency. Both models are premised upon historic extrapolation
                                                      models, but vary in methodology.




                                                           21
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS


      Agreed-Upon Procedures Performed                                  Results of Procedures

Performed a limited survey of interest and         Surveyed rates for compensation ranged from 3.375% to 1.84%
inflation rates utilized by the Postal Service,    and for medical ranged from 1.66% to 1.05%. The model's
OPM, and two other sources with governmental       rates compute to net effective rates of approximately 2.61% for
actuarial liabilities experience. Determined how   compensation and 1.07% for medical. The medical portion of
the surveyed net effective rates compared to the   the liability comprises approximately 19% of the total, up from
interest rates used in the model.                  17.5% last year.




                                                       22
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

General Overview

Agreed-upon procedures were applied to the net intra-governmental accounts receivable as of September
30, 2001, as compared with net intra-governmental accounts receivable as of September 30, 2000, with
regards to new receivables, collections, write-offs, and chargebacks.

We compared the fiscal year 2001 net intra-governmental accounts receivable to the fiscal year 2000 net
intra-governmental accounts receivable and investigated changes of over 5 percent. We also compared new
receivables, collections and write-offs for fiscal year 2001 to fiscal year 2000; calculated the accounts
receivable outstanding for each fiscal year; calculated the chargeback and fair share total for 2001; and
confirmed the chargeback amounts billed for claimants' payments directly with the Federal agencies
charged.

Procedures and Results

          Agreed-Upon Procedures Performed                                  Results of Procedures


 Compared prior year ending net intra-governmental        The change in the net intra-governmental accounts
 accounts receivable balances to the current year net     receivable balances was in proportion to the increases in
 intra-governmental accounts receivable balance by        benefit payments billed to each Federal agency.
 Federal agency. Determined whether the increase or
 decrease was in proportion to the change in amounts
 billed.

 Compared the fiscal year 2001 account activity by        The change in the write-offs and new accounts were in
 Federal agency for write-offs and new accounts           proportion with the amounts billed and collected.
 receivable to prior fiscal year activity. Determined
 whether the increase or decrease was in proportion to
 the change in amounts billed and collected.

 Confirmed accounts receivable balances due as of         Returned confirmations were reviewed for agreement to
 September 30, 2001, for all Federal agencies.            amounts recorded. Explanations for the differences were
                                                          obtained. DOL’s CFO office has an interagency
                                                          workgroup which works to resolve any differences with
                                                          other agencies.

 Compared the chargeback billing report for the period,   The amounts billed to the Federal agencies for the period
 July 1, 2000 through June 30, 2001, to the amounts       July 1, 2000 through June 30, 2001, agreed to the
 billed to the Federal agencies.                          chargeback billing report.

 Recalculated the allocation of credits due from the      No exceptions were noted.
 public.

 Determined, for a non-statistical sample of 100 items,   No exceptions were noted.
 whether claimant accounts receivable overpayments
 were properly established and classified.



                                                          23
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


Determined, for a non-statistical sample of 26 items,      No exceptions were noted.
whether, for cases in the preliminary status, the Letter
CA-2201 or Letter CA-2202, as applicable, was
properly issued to notify the claimants of the
preliminary decision regarding the claimant’s accounts
receivable and to give the claimant an opportunity to
provide additional evidence regarding the accounts
receivable. Determined whether, for cases in the final
status, a final decision was made as to the debt and
whether the final decision was properly recorded and
reported to the claimant.

Determined, for a non-statistical sample of 100 items,     In 1 of 100 accounts receivable items sampled, an
whether the proper procedures were followed with           adjustment was not properly posted to DMS resulting in
regards to the establishment of a repayment plan, the      an overstatement of $4,197.
assessment of interest, the compromise or waiving of
portions of interest or principal as appropriate and the   In 1 of 100 accounts receivable items sampled, a portion
pursuit of accounts receivable which were in arrears.      of the interest was improperly accrued resulting in a net
                                                           overstatement of approximately $828. In 2 of 100
                                                           accounts receivable, the interest being accrued was larger
                                                           than the payments being made.




                                                           24
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS


BENEFIT EXPENSE

General Overview

Agreed-upon procedures were applied to compensation and medical benefit payments in total, by strata,
by average payment and by agency for the fiscal year ended September 30, 2001, to the fiscal year ended
September 30, 2000, and for the interim period of October 1, 2000 to May 31, 2001, to the interim period
of October 1, 1999 to May 31, 2000. Changes in the actuarial liability from the prior year to the current
year were calculated. Agreed-upon procedures were applied to DOL's cut-off process.

Procedures and Results

 Agreed-Upon Procedures Performed                      Results of Procedures

 Compared the benefit payments recorded in the         The benefit payments recorded in the ACPS and BPS databases
 Automated Compensation Payment System (ACPS)          varied from the Department of Treasury’s SF-224 at May
 and Benefit Payment System (BPS) databases to the     31, 2001, by .02%. As of September 30, 2001, the ACPS and
 Department of Labor's general ledger and the          BPS databases varied from the Department of Treasury’s SF-
 Department of Treasury’s SF-224s as of May 31,        224 at September 30, 2001, by .02%
 2001 and September 30, 2001.                          ($.450 million) and from the Department of Labor’s general
                                                       ledger by .59% ($12.8 million).

 Obtained the Department of Labor's year-end cut-off   The year-end adjustment made to the general ledger to prorate
 procedures. Obtained the year-end adjustments         the expenditures which overlapped fiscal years agreed to the
 made to the general ledger to prorate expenditures    supporting documentation. The adjustments were recorded in
 which overlapped fiscal years. Determined if these    the correct period.
 adjustments were recorded in the correct period.

 Determined the average ACPS and BPS payments                         Strata with more than 7% variances:
 by strata for the May 31, 2001, and September 30,                        ACPS              Increase/(Decrease)
 2001, database and compared them to the average       5/31/01            Credits                   -18.3%
 ACPS and BPS payments by strata for the May 31,                          Payments >$150,000         10.09%
 2000, and September 30, 2000, databases.              9/30/01            Credits                   -12.1%
 Determined if there were any variances larger than                       Payments <$3,000          -14.73%
 7%. Requested explanations from DOL for variance                         Payments >$150,000         11.48%
 per strata over 7%, if any.                                              BPS               Increase/(Decrease)
                                                       5/31/01            Credits                   10.32%
                                                                          Payments >$150,000        17.22%
                                                       9/30/01            Payments >$150,000        16.45%

                                                       The decrease in ACPS credits was due to the reduction of accounts
                                                       receivable collections, the decrease in payments under $3,000 is due to
                                                       the overall increase in compensation payments due to application of the
                                                       CPI and the increase of payments over $150,000 was due to the volume
                                                       of cases adjudicated by the Hearings and Review Board. The increase
                                                       in BPS credits was due to the more timely monthly posting of credits in
                                                       the current year and the increase in BPS payments over $150,000 was
                                                       due to the overall increase in the cost of medical benefit payments.




                                                         25
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


Agreed-Upon Procedures Performed                        Results of Procedures

Compared the total benefit payments for each of the     Benefit payments increased 6% in 2001.
last 5 fiscal years. Determined if there were any
variances larger than 5% for each of the 5 fiscal       Medical benefit payments increased substantially over prior
years. Requested explanations from DOL for              years resulting in higher overall benefit payments.
variances over 5%, if any.

Compared the summary chargeback billing list to         The agency chargeback billing list varied from the benefit
the benefit payment databases as of September 30,       payment databases for the fiscal year ending September 30,
2001.                                                   2001, by .06%.

Compared, by agency and in total, compensation          Benefit payments for the fiscal year ending September 30,
and medical bill payments for the fiscal year ending    2001, increased 6% overall from the prior year. Benefit
September 30, 2001, with payments made for the          payments changed by more than 7% of the overall increase, for
fiscal year ending September 30, 2000. Requested        the following agencies:
explanations from DOL for variances in excess of                 Department of Commerce                      35%
7% of the overall increase, if any.                              NASA                                        16%

                                                        The increase at Department of Commerce was due to the
                                                        increase in claimants as a result of the decennial census and
                                                        the increase at NASA was due largely to a large sum payment
                                                        made as the result of a Hearings and Review Board decision on
                                                        a death case dating back to 1984.

Compared the benefit payments made by each              Benefit payments by district office for the period through May
district office as of May 31, 2001, and September       31, 2001 and September 30, 2001, varied from the prior year
30, 2001, to the prior year data. Determined if there   by 6.41% to 5.92% for the 12 district offices. Benefit
were any variances larger than 5%. Requested            payments increased by more than 5% of the average change for
explanations from DOL for variances over 5%, if         the Chicago (18%, 17%) and National Office (80%, 70%) at
any.                                                    May 31, 2001 and September 30, 2001, respectively.

                                                        The increase in cases at the Chicago office was due to the
                                                        movement of cases from other district offices The increase in
                                                        cases at the National Office was the result of a change in the
                                                        coding of ECAB cases from the district office to Hearings and
                                                        Review in the National Office.

Calculated a 12-month projected benefit payment         The actual 12-month total benefit payments varied from the
based on the May 31, 2001 database (8 month).           projected 12-month total benefit payments for the fiscal year
Compared the projected 12-month total benefit           ending September 30, 2001, by -1.99%.
payments to the actual 12-month total benefit
payments as of September 30, 2001.

Calculated the change in the actuarial liability        No exceptions were noted.
reported on the current year and prior year’s
compilation report prepared by DOL.




                                                          26
                                                                   Carmichael
                                                              Brasher Tuvell
Certified                  Public             A c c o u n t a n t s & Company
                                                                         678-443-9200
                                                               Facsimile 678-443-9700
                                                                     www.cbtcpa.com

                                     SECTION IIIA
                         INDEPENDENT SERVICE AUDITORS' REPORT


D. Cameron Findlay, Deputy Secretary of Labor
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget, and Other Specified Agencies:

We have examined the accompanying description of the policies and procedures of the Division of Federal
Employees' Compensation applicable to general computer controls and the processing of transactions for
users of the Federal Employees' Compensation Act Special Benefit Fund. Our examination included
procedures to obtain reasonable assurance about whether (1) the accompanying description presents fairly,
in all material respects, the aspects of DFEC policies and procedures that may be relevant to the internal
controls of users of the FECA Special Benefit Fund; (2) the control structure policies and procedures
included in the description were suitably designed to achieve the control objectives specified in the
description, if those policies and procedures were complied with satisfactorily, and users of the FECA
Special Benefit Fund applied the internal control policies and procedures contemplated in the design of
DFEC's policies and procedures, as described in Section IIIB; and (3) such policies and procedures had
been placed in operation as of April 30, 2001.

DFEC uses SunGard Computer Services, Inc. (SunGard), to process information and to perform various
functions related to the data processing services of the FECA Special Benefit Fund. The accompanying
description includes only those policies and procedures and related control objectives at DFEC, and does
not include policies and procedures and related control objectives at SunGard, a subservicer. The control
objectives were specified by the management of DFEC and did not extend to the controls at SunGard. Our
examination did not extend to the controls of SunGard, the subservicer. Our examination was performed
in accordance with standards established by the American Institute of Certified Public Accountants,
Government Auditing Standards, issued by the Comptroller General of the United States, and included
those procedures we considered necessary in the circumstances to obtain a reasonable basis for rendering
our opinion.

In our opinion, the accompanying description of the policies and procedures of DFEC presents fairly, in
all material respects, the relevant aspects of DFEC's policies and procedures that had been placed in
operation as of April 30, 2001. Also, in our opinion, the policies and procedures, as described, are suitably
designed to provide reasonable assurance that the specified control objectives would be achieved if the
described policies and procedures were complied with satisfactorily and users of the FECA Special Benefit
Fund applied the internal control policies contemplated in the design of the DFEC's policies and
procedures.




1647     Mount      Vernon      Road,     Dunwoody         Exchange,       Atlanta,     Georgia      30338
                                                27
In addition to the procedures we considered necessary to render our opinion, as expressed in the previous
paragraph, we applied tests to specified policies and procedures to obtain evidence about their effectiveness
in meeting the related control objectives during the period from October 1, 2000 through April 30, 2001.
The specific policies and procedures and the nature, timing, extent, and results of the tests are summarized
in Section IIIC. This information has been provided to the users of the FECA Special Benefit Fund and
to their auditors to be taken in consideration, along with information about the internal controls at user
organizations. In our opinion, the policies and procedures that were tested, as described in Section IIIB
were operating with sufficient effectiveness to provide reasonable, but not absolute, assurance that the
specified control objectives were achieved during the period from October 1, 2000 through April 30, 2001.
However, the scope of our engagement did not include tests to determine whether control objectives not
listed in Section IIIC were achieved; accordingly, we express no opinion on the achievement of control
objectives not included in Section IIIC.

The relative effectiveness and significance of specific policies and procedures at DFEC and their effect on
assessment of control risk at user organizations are dependent on their interaction with the policies and
procedures, and other factors present at individual user organizations. We have performed no procedures
to evaluate the effectiveness of policies and procedures at individual user organizations.

The description of policies and procedures at DFEC is as of April 30, 2001, and information about tests
of the Described Policies and Procedures of specified policies and procedures covers the period
October 1, 2000 through April 30, 2001. Any projection of such information to the future is subject to the
risk that, because of change, the description may no longer portray the system in existence. The potential
effectiveness of specified policies and procedures at DFEC is subject to inherent limitations and,
accordingly, errors or irregularities may occur and not be detected. Furthermore, the projection of any
conclusions based on our findings to future periods is subject to the risk that changes may alter the validity
of such conclusions.

This report is intended solely for the information and use of the U.S. Department of Labor, General
Accounting Office, Office of Management and Budget, users of the FECA Special Benefit Fund (Federal
agencies listed in Section IIB of this report), and the independent auditors of its users.



November 26, 2001




                                                     28
                                   SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

OVERVIEW OF SERVICES PROVIDED

Overview

The Federal Employees' Compensation Act Special Benefit Fund was established by FECA to provide
income and medical cost protection worldwide for job-related injuries, diseases, or deaths of civilian
employees of the Federal Government and certain other designated groups. The DOL-ESA is charged with
the responsibility of operation and accounting control of the Special Benefit Fund under the provisions of
FECA. Within ESA, the Office of Workers' Compensation Program, DFEC administers the FECA
program.

In 1908, Congress passed legislation providing workers' compensation to Federal workers whose jobs were
considered hazardous. Due to the limited scope of this legislation, FECA was passed in 1916, extending
workers' compensation benefits to most civilian Federal workers. FECA provided benefits for personal
injuries or death occurring in the performance of duty.

FECA provides wage replacement (compensation) benefits and payment for medical services to covered
Federal civilian employees injured on the job, employees who have incurred a work-related occupational
disease, and the beneficiaries of employees whose death is attributable to a job-related injury or
occupational disease. Not all benefits are paid by the program since the first 45 days from the date of the
traumatic injury are usually covered by putting injured workers in a continuation of pay (COP) status.
FECA also provides rehabilitation for injured employees to facilitate their return to work.

Actuarial Liability

Within ESA, the Division of Financial Management has been designated as the responsible agency to
generate the annual FECA actuarial calculations. The Division of Planning, Policy and Standards (DPPS)
has the direct responsibility for preparing the actuarial liability and the initial review of the detailed
calculations. The DPPS also has the responsibility of investigating and revising the initial model's
calculations as deemed appropriate. The FECA actuarial liability is prepared on an annual basis as of
September 30, of each fiscal year.

The actuarial model was originally developed during 1991 as spreadsheets by a DOL Office of Inspector
General (OIG) contractor (a certified actuary). The model utilized the basic theory that future benefit
payment patterns will reflect historic payment patterns. Under this approach, a projection can be made into
future years based on historical payments. This selected approach is commonly referred to as the "paid loss
extrapolation method." This method was chosen for its simplicity, availability of payment data, cost savings
and reliability.




                                                    29
                                   SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

Since 1991, the number of agencies for whom the liability is calculated increased. These additional
agencies are smaller in size than that of the agencies for whom the original model was developed. Historic
extrapolation models are generally held to work best with larger populations. As a result, the calculations
from year to year were more volatile than those for the original agencies, and preparing the estimates
became increasingly cumbersome. Therefore, during FY 2000, DOL engaged actuaries to create a new
model.

The new model shares its fundamental theory with the old model; future benefit payments are predicted
based upon the pattern of historical payments. As before, in order to run the model, the DPPS imports the
current year's actual FECA payments by each chargeback agency (FECA Chargeback System tapes). This
payment data per agency is subdivided into incurred injury year cells to provide the extra dimension of the
historic payment pattern. The chargeback tapes (historic basis) are maintained by the FECA Program,
which supplies the historic data to DPPS annually. Both models included historical payments in constant
dollars, inflation and discount factors as derived from OMB economic forecasting packages in its
calculations of future payments. Therefore, both models share a sensitivity to economic assumptions.

However, the new model varies from the previous model. For instance, claims incurred but not reported
(IBNR) was excluded from the previous model in accordance with Appendix B - Liability Recognition and
Measurement Matrix of SFFAS 5. The new model recognizes IBNR, which enhances its comparability to
private sector insurance model. FASAB has concurred with its inclusion. Also, the previous model
predicted future payments by multiplying the most recent year's payments by decay rates derived from
historical payments. In contrast, the new model develops an estimate of total anticipated payments by
injury year, subtracts cumulative payments to date, and allocates the remaining payments to future years
premised upon loss development factors.

In order to establish cumulative payments to date, the new model utilizes a backfilling technique, a casualty
model methodology. Because FECA makes payments on injuries incurred as far back as 1952, and the old
model's data base of payments begins in 1989, backfilling was necessary to complete the matrices of cost
by injury to payment year. The technique consists of extrapolating patterns from actual payments for the
years included in the data base, and developing reverse decay rates to predict what the costs should have
been in the years prior to the base of known payments.

In developing the backfilling factors, the model makes use of groupings of agencies. The groupings were
established based upon a claim duration study performed by a DOL economist. Most agencies were placed
in groups with a similar probability of a claim extending over a certain period of time. The agencies added
since 1991, were included in the group whose probabilities approximated the average of all the agencies.
The group is both affected by and affects the agencies within it. For instance, smaller agencies are more
affected than larger agencies. Besides the development of the backfilling factors, the grouping affects the
predicted loss development factors. The loss development factors are a weighted combination of agency,
group, and all-agency factors. The new model includes extending the duration of the model until the
estimated payments left to be paid expire.



                                                     30
                                    SECTION IIIB
                  DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                              POLICIES AND PROCEDURES

Chargeback System

DFEC is required to furnish to each agency and instrumentality, before August 15th of each year, a
statement or bill showing the total cost of benefits and other payments made during the period July 1
through June 30. DFEC established the chargeback system to furnish these statements.

The chargeback system creates bills which are sent to each employing agency for benefits that have been
paid on the agency's behalf. The bills are for a fiscal year inclusive of benefits paid from July 1 through
June 30. Each agency is required to include in its annual budget estimates for the fiscal year beginning in
the next calendar year, a request for an appropriation for the amount of these benefits. These agencies are
then required to deposit in the Treasury, the amount appropriated for these benefits to the credit of the
Fund within 30 days after the appropriation is available.

If an agency is not dependent on an annual appropriation, then the funds are required to be remitted during
the first 15 days of October following the issuance of the bill.

The bills sent to agencies for the chargeback system contain identifying codes that indicate both the year
being billed and the year in which the bill is to be paid. Each bill sent out in fiscal year 2001 and due in
fiscal year 2002 would be coded as follows: 01-XXX-02. The 01 indicates the year the bill is generated,
the XXX indicates the numerical sequence of the bill, and the 02 would indicate the year that the bill would
be due and paid.

Operational Offices

DFEC administers FECA through 12 district offices and a national headquarters located in Washington,
D.C. The District offices and the areas covered by each District office are:

                       Location of
       District        District Office         States or Regions Covered by District Office
          1            Boston                  Connecticut, Maine, Massachusetts, New Hampshire,
                                               Rhode Island, Vermont
           2           New York                New Jersey, New York, Puerto Rico, Virgin Islands
           3           Philadelphia            Delaware, Pennsylvania, West Virginia
           6           Jacksonville            Alabama, Florida, Georgia, Kentucky, Mississippi,
                                               North Carolina, South Carolina, Tennessee
           9           Cleveland               Indiana, Michigan, Ohio
          10           Chicago                 Illinois, Minnesota, Wisconsin
          11           Kansas City             Iowa, Kansas, Missouri, Nebraska, all DOL employees
          12           Denver                  Colorado, Montana, North Dakota, South Dakota, Utah,
                                               Wyoming
          13           San Francisco           Arizona, California, Guam, Hawaii, Nevada
          14           Seattle                 Alaska, Idaho, Oregon, Washington


                                                    31
                                   SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

          16           Dallas                  Arkansas, Louisiana, New Mexico, Oklahoma, Texas
          25           Washington, D.C.        District of Columbia, Maryland, Virginia,
                                               and overseas/special claims
          50           National Office         Branch of Hearings and Review

Subservicer

DFEC utilizes a subservicer, SunGard, to provide computer hardware and a communications network
between the national office, the District offices and the U.S. Treasury, to maintain a tape library and disk
drive backup and for other computer mainframe functions. SunGard’s control policies and procedures and
related control objectives were omitted from the description of Control Objectives and Tests of Policies
and Procedures contained in this report. Control Objectives and Tests of Policies and Procedures included
in this report include only the objectives that DFEC’s control policies and procedures are intended to
achieve.




                                                    32
                                   SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

OVERVIEW OF CONTROL ENVIRONMENT

An organization’s control environment reflects the overall attitude, awareness and actions of management
and others concerning the importance of controls and the emphasis given to control in the organization’s
policies and procedures, methods, and organizational structure. The following is a description of the key
policies and procedures that are generally considered to be part of the control environment.

Organization and Management

OWCP is one of four agencies within ESA. DFEC is one of five divisions within OWCP.




                                                   33
                                 SECTION IIIB
               DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                           POLICIES AND PROCEDURES

DFEC has four branches:

1.       Branch of Regulations and Procedures - This branch assists in developing claims and benefit
         payment policies, regulations and procedures; prepares and maintains the program's manuals;
         plans and conducts studies of claims and benefit payment functions; and participates in training
         activities and accountability reviews of District offices.

2.       Branch of Automatic Data Processing (ADP) Coordination and Control - This branch provides
         ADP support services for the FECA program. It coordinates the overall ADP work of DFEC
         and provides policy direction for ADP systems activities.

3.       Branch of Technical Assistance - This branch develops materials for use by District offices and
         other Federal agencies to educate Federal employees in reporting injuries and claiming
         compensation under the FECA. They also hold workshops for compensation personnel in
         various Federal agencies and for groups of employee representatives.

4.       Branch of Hearings and Review - This branch is responsible for conducting hearings and reviews
         of the written record in FECA cases. Hearing Representatives issue decisions which sustain,
         reverse, modify, or remand cases to the OWCP District offices.




                                                  34
                                     SECTION IIIB
                   DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                               POLICIES AND PROCEDURES

Branch Operations

A Branch chief reports directly to the Deputy Director. The Director and Deputy Director coordinate the
operations of the 12 District offices.

District Offices

A District Director (DD) oversees the daily operations at each of the 12 District offices. The DD in each
office oversees the claims section and a Fiscal Officer who oversees the Fiscal Section.

The District offices serve the persons residing within their district. When an individual moves from one
district to another, the individual's case file and responsibility for monitoring the case is transferred to the
district office where the individual has moved, unless the case is for a claimant specified as a special
employee. Cases specified as special employee cases are always processed at District office 50.

The specific functions within the District offices are:

1.         Claims Functions. In each district office are two or more Supervisory Claims Examiners, who
           are responsible for the operation of individual claims units, and a number of Senior Claims
           Examiners and Claims Examiners (CE), who have primary responsibility for handling claims,
           including authorization of compensation and eligibility for medical benefits. Individuals at each
           level of authority from DD to CE have been delegated specific responsibilities for issuing
           decisions on claims.

2.         Fiscal Functions. Each District office usually has a Fiscal Operations Specialist and at least one
           Benefit Payment Clerk. Some District offices have a Bill Pay Supervisor as well. The unit is
           generally responsible for resolution of problems with medical bills, complex calculations of
           benefits and overpayments, adjustments to compensation and bill pay histories, changes in health
           benefits and life insurance coverage, and financial management records. In some District offices,
           fiscal personnel enter compensation payments into the electronic system.

3.         Medical Functions. Each District office usually has at least one District Medical Adviser (DMA)
           who works under contract to review individual cases, and some District offices have a District
           Medical Director (DMD) as well. Each District office also has a Medical Management
           Assistant, who arranges referrals to second opinion and referee specialists. Each District office
           also has a Staff Nurse, who is responsible for coordinating a number of field nurses who monitor
           claimants’ medical progress and assist their efforts to return to work.

4.         Mail and File Functions. Personnel in this area open, sort, and place mail; set up case files, retire
           case records according to established schedules; and transfer case files in and out of the District
           office.



                                                      35
                                    SECTION IIIB
                  DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                              POLICIES AND PROCEDURES

5.         Vocational Rehabilitation Functions. Each District office has at least one Rehabilitation
           Specialist (RS) and usually a Rehabilitation Clerk. The RS manages a number of Rehabilitation
           Counselors, who work under contract with OWCP to help claimants obtain employment.



                                       FECA District Office

                                                Office of the
                                               District Director



                 Assistant                                 Branch of Operations
                 District                                        Support
                 Director



             Claims Sections       Mail & File Section        Fiscal Section       Medical Section




                                                             Bill Pay Section




OVERVIEW OF TRANSACTION PROCESSING

Identification and Registration of the Recipient of FECA Benefits

Authorized recipients of FECA benefits are those individuals who meet all of five eligibility criteria. Injured
workers submit claim information to the district office which serves the geographical location in which the
claimant resides. Claims are processed by the district office using the Case Management File System
(CMF).

The CMF uses a standard identification number of nine characters to identify each case file. This number
is called the case number. All recipients of FECA benefits must have a unique case number recorded in the
CMF, some individuals could have multiple case numbers if the individual has sustained more than one
injury.

The CMF maintains an automated file with identification on all individuals who have filed claims with
FECA. These records contain data elements that identify the claimant, the mailing and/or location address
for the claimant, and additional injury information and case status information.



                                                      36
                                    SECTION IIIB
                  DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                              POLICIES AND PROCEDURES

Benefit Payments

FECA claimants may be entitled to compensation for injury and lost wages, schedule awards, death benefits
and payment of medical expenses related to the work-related injury. The payments for lost wages, schedule
awards and death benefits are processed through the Automated Compensation Payment System (ACPS),
while the payments for injury-related medical expenses are processed through the Bill Payment System
(BPS). Each of these systems support the Department of Labor's general ledger system via an automated
interface.

The primary function of ACPS is to process the payment of weekly, monthly, and supplemental benefits
to claimants. The ACPS interfaces with the CMF to ensure that approved claims are supported by a valid
case number. District office personnel input compensation payment data worksheets into the ACPS. The
inputs onto the payment data worksheets are accumulated in batches in the ACPS and transmitted by the
District office to the national office every night. The mainframe computer, maintained by SunGard, runs
automated calculations to compute the payment schedule and transmits the schedule back to the District
offices the next morning. The District offices review the payment schedules and if the information is
correct, no further action is required and payments will be made during the next appropriate payment cycle.

Approved payments are stored in a temporary file for the duration of the appropriate compensation
payment cycle: Daily Roll (5 days), Death Benefits (28 days), or Disability (28 days). At the end of the
cycle, the mainframe runs automated programs to format the data to Treasury specifications, to update the
compensation payment history files for use in the chargeback system, and to send summarized information
to the District office Fund Control System. The specially formatted Treasury information is sent to
Treasury via a secure modem over a dedicated line for payment processing.

The primary function of the BPS is to process payments to medical service providers or reimbursements
to claimants for medical expenses incurred for the work-related injury. The national office has the
responsibility of compiling the BPS data on a nightly basis as it is transmitted from each District office.
Medical bills containing charges for other than appliances, supplies, services or treatment provided and
billed for by nursing homes are subject to a medical fee schedule. The mainframe will run a zip code check
and a comparison check of the amount to be paid to fee schedules in each geographical area. If the amount
is in excess of the geographical fee schedule, the system will limit the payment to the maximum amount in
the fee range. A bill in which certain fields are the same is identified by the system as a potential duplicate
payment, excluded from payment and sent to a bill resolver at the District office to determine if a duplicate
payment exists.

Approved payments are stored in a temporary file for the duration of the bill payment cycle of 5 days. At
the end of the cycle, the mainframe runs programs that format the data to Treasury specifications, updates
the bill payment history files for use in the chargeback system, and sends summarized information to the
District office Fund Control System. The specially formatted Treasury information is sent to Treasury via
secure modem over a dedicated line for payment processing. The following charts set forth an overview
of transaction processing at DFEC:


                                                      37
                                         SECTION IIIB
                       DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                   POLICIES AND PROCEDURES

Processing of Compensation Payments



    P:\SHARE\DOL\99FECA\FLOWCHRT\97ACP2.AF3
    Monday,CA-7,
           JuneClaim
                 17,for1996
               Compensation is                                                                 T-Cup access CMF to
                                                 CA-7 is date
                                                                                               check for a valid case
    3:33 PM     received in the                  stamped by            Data Entry Operator
                   Mailroom                                            keys dates into T-Cup          number
                                                  mail clerks




                                    Claims                                                         Case file is
                                                                     Claims Examiner
                                   Examiner                                                       pulled from file
                                                                     receives case file
                                  approves or                                                      room by file
                                                                       from mailroom
                                  denies claim                                                         clerks




                            Claims Examiners key
                           approved or denied status
                                  into ACPS


   Claim Denied                                     Claim Accepted



       Claimant is notified of                                                                    Payment is certified                ACPS stores
                                       ACPS access CMF to              Payment is set up by
        case determination                                                                           by a SrCE or                 approved payments
                                         ensure case file                    a CE
                                                                                                      equivalent                      for overnight
                                          number is valid
                                                                                                                                    transmission to
                                                                                                                                  National mainframe




                                                                District Office personnel         Main frame                   Mainframe receives
                      CE approves or does                         receives CP-40 and               transmits                    payment data and
                      not approve payment                        distributes to Claims          payment data to                calculates payments
                                                                        Examiners                 district office                    schedule
                            schedule




     Not Approved
                                                 Approved
     (Fatal Errors)



                                               Approved                        Payments not                      Payment
         Claims Examiner
                                            payments are                       changed are                    information is
        re-inputs case and
                                          submitted to Senior                   considered
           resubmits for                                                                                      transmitted to
                                           Claims Examiner
             processing                                                          accepted                        Treasury
                                            for verification




                                                                              38
                                 SECTION IIIB
               DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                           POLICIES AND PROCEDURES

Processing of Medical Payments




                                    39
                                   SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

Computer-Generated Reports

BPS generates a summary report, generated on a weekly basis, that is a history of bill payments for the
week. This report can be utilized for investigative purposes as well as for confirming whether a particular
bill has been paid.

The ACPS generates a summary report on a daily basis which is a history of compensation payments. This
report can be utilized for investigative purposes as well as for confirming whether a particular claim has
been paid. The mainframe transmits updated ACPS History Files to the District offices where they are
available for query purposes for 6 months. The mainframe retains the history files for query purposes for
2 years before they are archived.

Chargeback System

The ACPS and BPS system history files are combined on a quarterly and annual basis to create the FECA
Chargeback Report. The FECA Chargeback System (CBS) is a subsidiary of DOLAR$. CBS provides
methods for tracking accounts receivable - intra-governmental activity while maintaining all financial data
centrally in DOLAR$. The June 30 year end FECA Chargeback Report is used to annually bill Federal
agencies for payments made on their behalf for the period July 1 to June 30. The Office of Management
and Planning (OMAP) provides quarterly benefit summaries to Federal agencies based on the FECA CBS.

The On-line Payment and Collection System (OPAC) is utilized to facilitate the electronic billing between
Federal agencies through Treasury. OPAC's main responsibility is to process the SF-1081s. SF-1081
(Voucher and Schedule of Withdrawals and Credits) is a form which authorizes the transfer of expenses
or income from one Federal agency's appropriation to another for services rendered. The receivables are
tracked in an internally maintained subsidiary ledger maintained by OMAP.

Third Party Settlements

An injury or death for which compensation is payable to a FECA claimant that is caused under
circumstances creating a legal liability on a person or persons other than the United States (a third party)
to pay damages will result in the case being classified as a third party case. Status codes are used to track
the progress of third party cases in the Case Management File System. OWCP usually requires the claimant
to pursue legal action; however, the United States can pursue action on its own by requiring the beneficiary
to assign rights of action to the United States.

A letter (CA-1045) is sent to a claimant by the claims examiner when initial injury reports indicate a
potential third party. The CA-1045 requests information about the injury, the third party and the actions
taken by the claimant in regards to pursuing a claim against the third party, including the hiring of an
attorney.




                                                     40
                                    SECTION IIIB
                  DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                              POLICIES AND PROCEDURES

When the CE receives a reply to the CA-1045 (or does not receive a reply 30 days after the second request
is sent to the claimant) or obtains the name and address of the attorney representing the claimant, the case
is usually referred to a designated claims examiner (DCE).

A case may be closed as "minor" and not pursued if the claimant has an injury where the total medical bills,
compensation and time lost from work do not exceed or are expected not to exceed $1,000. Additionally,
a case may only be closed as "minor" if the claimant has not responded to the CA-1045, or has responded
but is not personally asserting a third party claim and has not retained an attorney.

The DCE refers the case to the appropriate DOL, Solicitor (SOL) in the following instances:
<       The case is not minor and advice is received that the claimant is negotiating a settlement.

<          Advice is received that the claimant has retained an attorney to handle the third party action,
           regardless of the amount of disbursements.

<          The case is not minor and the claimant refuses to pursue the third party claim or does not reply
           to the CA-1045.

<          The third party case involves a death claim, a permanent disability, Job Corps, Peace Corps,
           VISTA, an injury occurring outside the United States or Canada, a common carrier as the
           potential defendant, malpractice, product liability or an injury to more than one employee.

Once referred to SOL, the DCE performs certain actions to ensure that the case is properly tracked while
at SOL. For instance, after the initial referral, an updated disbursement statement is furnished to the SOL
within 5 working days of receipt of the request. It is essential that initiation of, termination of, or changes
in periodic roll payments be reported to the SOL immediately. Additionally, the DCE requests a status
report from the SOL at 6-month intervals.

When a settlement is reached in a third party case, the DCE prepares a Form CA-164 which is a summary
of all disbursements made to the claimant for compensation payments and to medical providers on the
claimants behalf, and forwards it to the fiscal section. If an amount owed from the claimant is received by
OWCP, the amount is credited against the ACPS and BPS, as appropriate. By recording the amount in
the ACPS and BPS, the proper employing agency is credited with the amounts recovered from third party
settlements.

If the full amount of the third party refund is not received from the claimant, an accounts receivable balance
is set up for the amount still due. If the amount recovered exceeds the amount already paid by OWCP to
the claimant for compensation and medical benefits, then the excess amount is recorded and tracked in the
case file to prohibit any additional benefits from being paid to the claimant until the amount of eligible
benefits to the claimant exceeds the excess amount.




                                                      41
                                   SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

OVERVIEW OF COMPUTER INFORMATION SYSTEMS

The computerized accounting system used by the Federal Employee's Compensation Special Benefit Fund
maintains all of the data for each of the claimants applying for FECA benefits. The Federal Employees'
Compensation Systems (FECS) is the electronic data processing system for FECA benefits. This computer
system is comprised of the following five subsystems:

<         Automated Compensation Payment System
<         Medical Bill Processing System
<         Case Management File
<         Debt Management System
<         Chargeback System

The FECS provides authorized users with on-line access to the various subsystems for file maintenance and
information purposes. Access to the FECS through computer terminals located in both the national and
12 District offices permits authorized users to perform a variety of functions, such as query, add, and
update claims data, track claims and overpayments, calculate retroactive benefit payments and enroll
approved claimants for benefits on the FECS.

In addition to storing information relevant to claims adjudication, benefit entitlement and payment status,
the FECS generates reports primarily used by management in administering the FECA Program. The
system also processes payments for covered medical expenses and monthly and supplemental benefit
payments to or on behalf of program beneficiaries.

Access to the FECS is limited to only certain employees, and their degree of access is based upon the user's
function within the program. The FECA EDP security officer within the Branch of ADP Coordination and
Control is responsible for assigning passwords and other procedures required to permit access to the FECS
at the national office; District Systems Managers are responsible for assigning passwords and other
procedures required to permit access to the FECS at the District office level. Controls to restrict access
to FECS to authorized personnel include the following (national and district office level):

<         A security briefing is given for each person having access to the system.

<         Access and an access profile for authorized users are established through a security software
          package (Access Control Facility).

<         Computer Information Control System establishes terminal access to the host computer.

<         Log on attempts are restricted to three attempts.

<         An audit trail report of unauthorized attempts to access the system is available.

<         Terminals are secured in locked rooms at the end of the work day.

<         Written procedures exist for both physical hardware and software security.

                                                    42
                                   SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

Organization and Administration

A System Administrator is responsible for overseeing all the data processing activity of FECS. DFEC
employs approximately 7 individuals within the Branch of ADP Coordination and Control and has contracts
with outside computer consulting firms, Computer Data System, Inc. (CDSI), and Viatech through which
approximately 30 individuals work with DFEC. CDSI and Viatech provide software development and
maintenance for DFEC.

At each District office, a System Manager is responsible for overseeing all the data processing activity
performed at the district level (including user access). The System Managers are under the supervision of
the Division of Information Technology Management and Services (DITMS). DITMS includes both
Federal Government employees and outside contractors. The System Managers have access to system data
for report generation and submission purposes. The System Managers can only extract information from
the database and cannot change any of the source codes (i.e., programs).

The function of DITMS is to maintain computer networks, operating systems, and computer hardware
systems for the DOL environment. DITMS installs all of the data processing applications and modifications
developed by DFEC. In addition, DITMS is responsible for the management controls surrounding the host
mainframe application of FECS, such as assignment and maintenance of system support personnel to the
mainframe and access violations monitoring.

Operations

The Office of the Assistant Secretary for Administration and Management contracted with SunGard
Computer Services, Inc. (SunGard), for computer mainframe time-sharing services. SunGard provides
computer hardware and a communications network between the national office, the district offices and the
U. S. Treasury. In addition, SunGard maintains a tape library and disk drive backup. The SunGard
database includes all medical and disability compensation payment information since 1978.

There are four levels of hardware, software, communications, supplies and facility resources for DFEC:
SunGard mainframe, national office Sequent minicomputers, district office Sequent minicomputers and the
user and programmer development terminal personal computers with authorized access into the mainframe
or minicomputer system.

There are formal operator and user manuals for some components of the system. There are extensive input
edit checks in the software. Errors are automatically rejected by the system and queued for review by the
appropriate individuals. Reports that track the errors, including aging information, are routinely produced.




                                                    43
                                    SECTION IIIB
                  DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                              POLICIES AND PROCEDURES

Documentation

Hardware: DITMS maintains an extensive list of the hardware used in the FECS processing at all sites.

Software: DITMS maintains an extensive list of the third party software used in the FECS processing
which includes operating system software, compilers and utilities. DFEC is responsible for the maintenance
of FECS application software. All the hardware and software modifications are controlled by DOL.
OWCP requests the modifications, DFEC designs and tests the modification, and DITMS installs the
modifications.

Acceptance testing is performed by DOL using an environment that closely copies the development
environment. The procedures used for the acceptance testing varies according to subsystem. No formal
documentation of the acceptance testing is maintained. However, DFEC maintains a history of all prior
source code versions which provides evidence of all modifications of the source code.

The System Administrator has an assistant responsible for computer design development, programming
and analysis. Another assistant of the System Administrator is responsible for evaluating the testing of all
new and modified source codes (programming) and the distribution to the district offices. Additionally,
this assistant supervises all staff programmers.

Anti-Virus Control

The FECS currently runs a variety of anti-virus or virus checking routines. Each file server runs an anti-
virus module resident on the server. The local area networks (LANs) are "dustless" LANs. When disks
are scanned (e.g., for the installation of new software), anti-virus software is used to scan disks to identify
and remove viruses. Personal computers are attached to LANs in OWCP District offices utilize hard drives
in addition to the central file server. All of the personal computers utilize an anti-virus software and can
be run in a scheduled or unscheduled ad hoc mode.

Subservicer

DFEC utilizes a subservicer, SunGard, to provide computer hardware and a communications network
between the national office, the District offices and the U.S. Treasury, to maintain a tape library and disk
drive backup and for other computer mainframe functions.




                                                      44
                                   SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

CONTROL OBJECTIVES AND RELATED POLICIES AND PROCEDURES

DFEC's control objectives and related policies and procedures are included in Section IIIC of this report,
"Information Provided by the Service Auditor," to eliminate the redundancy that would result from listing
them here. Although the control objectives and related policies and procedures are included in Section
IIIC, they are, nevertheless, an integral part of DFEC's description of policies and procedures.

USER CONTROL CONSIDERATIONS

DFEC's processing of transactions and the control policies and procedures over the processing of
transactions were designed with the assumption that certain internal control policies and procedures should
be in operation at user organizations to complement the control policies and procedures at DFEC. User
auditors should determine whether user organizations have established internal control policies and
procedures to ensure that:

C         Employing agencies understand their responsibilities under FECA.

C         Employing agencies provide injured employees with accurate and appropriate information
          regarding injuries covered under FECA, including the employees' rights and obligations and
          claim forms.

C         Employing agencies timely and accurately report all work-related injuries and deaths to DFEC
          via the injury and death reporting forms such as the CA-1, CA-2, and CA-5, once completed by
          injured employee or claimant in the case of death. Supervisors should encourage persons
          witnessing injuries to record and report what was witnessed to DFEC.

C         Employing agencies provide complete and accurate information regarding a claimant’s rate of
          pay, hours worked, leave taken, and continuation of pay to DFEC.

C         Employing agencies promptly controvert questionable claims.

C         Employing agencies monitor the medical status of injured employees to be aware of what work
          the injured employee is capable of to enable the employing agency to provide additional
          information on the requirements of a position, or modified position, when applicable.

C         Employing agencies assist DFEC in returning employees to work by establishing or identifying
          positions, either modified or light-duty, to return the injured employee to work as early as
          possible. The Employing agency also needs to inform DFEC directly of the positions available.

C         Employing agencies review the chargeback coding notification (postcard) sent by DFEC when
          an injury report is received to ensure the individual will be charged to the proper agency and
          department.




                                                    45
                            SECTION IIIB
          DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                      POLICIES AND PROCEDURES

C   Employing agencies review quarterly chargeback billings to ensure that each injured employee
    charged to their department and agency are employees or former employees of the agency, and
    that the amounts charged for compensation costs appear reasonable in light of the injured
    employee's compensation and the date of injury.




                                           46
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR

This report is intended to provide users of the FECA Special Benefit Fund with information about the
control policies and procedures at the DFEC that may affect the processing of user organizations'
transactions, general computer controls and also to provide users with information about the policies and
procedures that were tested. This report, when combined with an understanding and assessment of the
internal control policies and procedures at user organizations, is intended to assist user auditors in (1)
planning the audit of the user organizations' financial statements and (2) assessing control risk for assertions
in user organizations' financial statements that may be affected by policies and procedures at DFEC.

Our testing of DFEC's internal control policies and procedures was restricted to the control objectives and
the related policies and procedures listed in this section of the report and was not extended to procedures
described in Section IIIB but not included in this section or to procedures that may be in effect at user
organizations. It is each user auditor's responsibility to evaluate this information in relation to the internal
control policies and procedures in place at each user organization. If certain complementary controls are
not in place at user organizations, DFEC's internal control policies and procedures may not compensate
for such weaknesses.

TESTS OF CONTROL ENVIRONMENT ELEMENTS

The control environment represents the collective effect of various elements in establishing, enhancing or
mitigating the effectiveness of specific policies and procedures. In addition to tests of the policies and
procedures listed in this section of this report, our procedures also included tests of and consideration of
the relevant elements of the DFEC's control environment including:

C          DFEC's organizational structure and the segregation of duties
C          Management control methods
C          Management policies and procedures

Such tests included inquiry of appropriate management, supervisory, and staff personnel; inspection of
DFEC's documents and records; observation of DFEC's activities and operations; and a limited review and
evaluation of SunGard's, the subservicer, most recent SAS 70 report, issued for the period from October
1, 1999 to September 30, 2000. The results of these tests were considered in planning the nature, timing,
and extent of our tests of the specified control policies and procedures related to the control objectives
described within this report.

SAMPLING METHODOLOGY

To facilitate the testing of transaction processing controls, we developed a sampling plan as outlined below.

We performed tests on a sample of compensation for lost wages, schedule awards, death benefits and
medical benefit payments paid during the period October 1, 2000 to April 30, 2001, at 5 of 12 District
offices. The sample design involved a two stage process.

The first stage in our sample design was the selection of district offices. District offices were randomly
selected by first forming two strata of the districts and then taking all the districts from the first strata, and
selecting two districts from the second strata. This procedure resulted in the selection of five district


                                                       47
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR

offices. The 5 district offices comprised approximately $800 million of the $1.301 billion or 61.5 percent,
of FECA payments during the seven month period ended April 30, 2001.

The second stage of the sample design was the selection of sampling units. The sampling units were a
single medical payment or total compensation payments to a case number. The universe of the sample
districts was stratified into 13 strata for the compensation payments and into 12 strata for the medical
payments. The sample size was determined for each of the 13 strata for compensation and 12 strata for
the medical payments using the following parameters:

C         The total number of items and dollar value of the strata universe

C         The estimated variance within each strata

C         A 95% confidence level (5% risk of incorrect acceptance)

C         A variable sampling precision (2.8% to 4.6%) of the point estimate

C         Materiality and tolerable error as defined for FECA benefit payments

Using statistical formulas, these parameters yielded a total sample of 359 items. Of the total sample, 182
were medical payments and 177 were compensation payments. The sample items were then randomly
selected.

Our detailed substantive testing was performed at the following district offices with the following number
of items tested:
                                                                            Number of
                         District Office                                 Statistical Items
                         Philadelphia                                            71
                         Jacksonville                                            78
                         Denver                                                  56
                         San Francisco                                           80
                         Dallas                                                  74
                         Total                                                 359




                                                    48
                                  SECTION IIIC
                   INFORMATION PROVIDED BY THE SERVICE AUDITOR

Our testing at the district offices consisted of control tests in the following categories:

           Case Creation                                            Payment Processing
           Initial Eligibility                                      Schedule Awards
           File Maintenance                                         Death Benefits
           Continuing Eligibility-Medical Evidence                  Medical Bill Payment Processing
           Continuing Eligibility-Earnings Information              Third Party Settlements


The number of sample items for control tests was statistically selected based on the sampling plan detailed
above. The number of sample items tested was determined based on the number of items to which the test
of controls applied. The control tests would not be applicable to some sample items due to factors such
as the age of the injury. Additional testing was performed on items which were selected in a non-statistical
method.

Initial Eligibility Cases

Audit queries were generated which determined all of the cases in which claimants were injured and began
receiving compensation during the sampling period of October 1, 2000 to April 30, 2001. From a
population of 874 initial eligibility cases in the 5 district offices tested, a random sample of 50 cases, 10
cases per district office, was selected. We reviewed the case files to ensure that the proper procedures had
been followed in determining whether or not the claimants were eligible to receive benefit payments and
whether benefit payments were paid at the correct amount.

Multiple Claim Payments

Audit queries were generated which compared certain elements of each compensation payment made
during the period October 1, 2000 through April 30, 2001. The query compared case files in which the
social security number was the same for multiple case files. This situation would normally occur when an
employee has suffered more than one injury, as a separate case number is assigned for each injury. We
analyzed the payments to ensure that a claimant was not receiving excessive or overlapping compensation.
We removed from the population of 1,008 multiple claim payments, the cases tested in previous years
which resulted in no errors, resulting in a population of 976 multiple claim compensation payment items
to be tested. We tested 75 claimants, 25 from each of the 5 district offices for whom compensation
payments for an overlapping period of time were made on more than one case.

Gross Override

Audit queries were generated which determined all cases on which the amount of compensation to be paid
was manually overridden from what the ACPS calculated the payment should be. We selected instances
where the amount paid as a result of the override was more than the amount that the ACPS had calculated
should be paid. We tested all 19 cases which were identified for the five district offices in which testwork
was to be performed.

Third Party Settlements


                                                     49
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR

Audit queries were generated which determined all claimants that had a third party status indicator in the
CMF. We then randomly selected 35 cases from a population of 2,356 cases with third party indicators,
active within the past year, in the district offices in which test work was to be performed.

Current Medical

Audit queries were generated which determined all cases with a short term liability status, on which
compensation was currently being paid, but for which no medical payment were made in the past two years,
to determine which cases may not have current medical evidence. We then randomly selected 50 cases
from a population of 251 cases which met our query definition, in the district offices in which test work
was to be performed.

Provider Type

Audit queries were generated which determined medical bill payments made to chiropractors on claimant
cases for which the accepted condition did not involve the back or neck to determine if the proper
providers type was being used and payments were properly supported with specifically required medical
evidence. We then randomly selected 50 cases from a population of 2,936 payments which met our query
definition, in the district offices in which test work was to be performed.

Duplicate Payments

Audit queries were generated which determined medical bill payments which appeared to have been made
in duplicate and were over $5,000. We tested all 10 medical bill payments which were identified for the
five district offices in which testwork was to be performed.




                                                   50
                                      SECTION IIIC
                       INFORMATION PROVIDED BY THE SERVICE AUDITOR

Summary of Sample Items

The following sample items were selected for substantive testing of transactions:

 Sample Type                 Philadelphi    Jacksonville   Denver      San      Dallas   Sub-         Sub-    Total
                                  a                                 Francisco            Total        Total

 Lost Wages (S)                  33             34           21        24        25      137

 Death (S)                          3            3              3       3         3       15          177
                                                                                                              359
 Schedule Award (S)                 3            1              2       8        11       25

 Medical Bills(S)                34             40           28        45        35            182

 Initial Eligibility (N)         10             10           10        10        10              50

 Multiple Claim(N)               15             15           15        15        15              75           144

 Gross Override(N)                  0            5              4       6         4              19

 Provider Type (N)               10             10           10        10        10                   50

 Potential Duplicates(N)            0            6              0       1         3                   10

The following sample items were selected for testing of internal controls:

 Sample Type               Philadelphia    Jacksonville    Denver      San      Dallas   Sub-         Sub-    Total
                                                                    Francisco            Total        Total

 Lost Wages (S)                15              17           21         14        15       82

 Death (S)                      3               3            3         3          3       15          112
                                                                                                              194
 Schedule Award (S)             3               1            2         4          5       15

 Medical Bills(S)              23              16           11         18        14              82

 Initial Eligibility (N)       10              10           10         10        10                   50

 Third Party (N)                7               7            7         7          7                   35

 Current Medical (N)           10              10           10         10        10                   50

(S) - Statistically selected sample
(N) - Non-statistically selected sample




                                                           51
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR

CONTROL OBJECTIVES, RELATED POLICIES AND PROCEDURES, AND TESTS OF
DESCRIBED POLICIES AND PROCEDURES

This section presents the following information provided by the DFEC:

C         The control objectives specified by management of DFEC.
C         The policies and procedures established and specified by DFEC to achieve the specified control
          objectives.

Also included in this section is the following information provided by the service auditor:

C         A description of the tests performed on the described policies and proecdures by the service
          auditor to determine whether DFEC's control policies and procedures were operating with
          sufficient effectiveness to achieve stated control objectives.

C         The results of the service auditors' tests of the described policies and procedures.




                                                   52
                                  SECTION IIIC
                   INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          GENERAL COMPUTER CONTROLS

Control Objective: General Computer Controls - Control policies and procedures provide reasonable
assurance that DFEC has generally established computer controls over entity-wide security, access
controls, application software development and change controls, segregation of duties, systems software,
and service continuity.

Description of Policies and Procedures

Entity-wide security

ESA, of which DFEC is a division, periodically assesses risk through independent risk assessments which
are performed and documented on a regular basis or whenever systems, facilities, or other conditions
change. The risk assessments consider data sensitivity and integrity and range of risks to the entity's
systems and data; and, final risk determinations and related management approvals are documented and
maintained on file.

ESA, of which DFEC is a division, has drafted a security program plan that: covers all major facilities and
operations, has been approved by key affected parties, and covers the topics prescribed by OMB Circular
A-130 (general support systems/major applications): Rules of the system/Application rules, Training/
Specialized training, Personnel controls/Personnel security, Incident response capability/ Continuity of
support/Contingency planning, Technical security/Technical controls, System interconnection/Information
sharing, Public access controls, access controls, application software development and change controls,
segregation of duties, systems software, and service continuity. The plan is reviewed periodically and
adjusted to reflect current conditions and risks.

ESA’s security program plan establishes a security management structure with adequate independence,
authority, and expertise. An information systems security manager has been appointed at an overall level
and at appropriate subordinate levels.

The security plan clearly identifies who owns computer-related resources and who is responsible for
managing access to computer resources. Security responsibilities and expected behaviors are clearly
defined for: (1) information resource owners and users (2) information resources management and data
processing personnel (3) senior management (4) security administrators.

ESA has implemented an ongoing security awareness program that includes first-time training for all new
employees, contractors, and users, and periodic refresher training thereafter. Security policies are
distributed to all affected personnel, including system/application rules and expected behaviors.

ESA's incident response capability has the characteristics suggested by industry standards: use of virus
detection software, an understanding of the constituency being served, an educated constituency that trusts
the incident handling team, a means of prompt centralized reporting, response team members with the
necessary knowledge, skills, and abilities, and links to other relevant groups.

For prospective employees, references are contacted and background checks performed. Periodic
reinvestigations are performed at least once every 5 years, consistent with the sensitivity of the position per
criteria from the Office of Personnel Management. Regularly scheduled vacations exceeding several days

                                                      53
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS

are required, and the individual's work is temporarily reassigned. Regular job or shift rotations are
required. Termination and transfer procedures include: exit interview procedures; return of property, keys,
identification cards, passes, etc.; notification to security management of terminations and prompt revocation
of IDs and passwords; immediately escorting terminated employees out of the entity's facilities; and
identifying the period during which non-disclosure requirements remain in effect.

Skill needs are accurately identified and included in job descriptions, and employees meet these
requirements. A training program has been developed. Employee training and professional development
are documented and monitored.

ESA’s Information Systems security program is subjected to periodic reviews. Major applications undergo
independent review or audit at least every 3 years. Major systems and applications are accredited by the
managers' whose missions they support.

                     Tests of Described Policies and Procedures:                                 Results of Tests

 Reviewed risk assessment policies, the most recent high-level risk assessment, and       No exceptions were noted.
 the objectivity of personnel who performed and reviewed the assessment.

 Reviewed the security plan and determined whether the plan covered the topics            The business continuity and
 prescribed by OMB Circular A-130 and reviewed any related documentation which            incident response section
 indicated that the security plan had been reviewed and updated, and was current.         referencing capabilities are
                                                                                          not fully implemented. A risk
                                                                                          based approach to the security
                                                                                          plan is not implemented. No
                                                                                          other exceptions were noted.

 Reviewed the entity's organization chart; job descriptions; documentation                No exceptions were noted.
 supporting or evaluating the awareness program; memos, electronic mail files, or
 other policy distribution mechanisms. Interviewed security management staff.
 Interviewed security manager, response team members and system users. Review
 documentation supporting incident handling activities. Determine qualifications of
 response team members.

 Review hiring policies. For a selection of recent hires, inspected personnel files and   No exceptions were noted.
 determine whether references have been contacted and background investigations
 have been performed. Review reinvestigation policies. For a selection of sensitive
 positions, inspect personnel files and determine whether background
 reinvestigations have been performed. Review policies on confidentiality or security
 agreements. For a selection of such users, determine whether confidentiality or
 security agreements are on file. Review vacation policies. Inspect personnel records
 to identify individuals who have not taken vacation or sick leave. Determine who
 performed vacationing employee’s work during vacation.

 Reviewed job descriptions for security management personnel, and for a selection of      Security-related personnel
 other personnel; training program documentation; training records and related            policies do not require
 documentation showing whether such records were monitored and whether                    confidentiality or security
 employees were receiving the appropriate training.                                       agreements. No other
                                                                                          exceptions were noted.

Description of Policies and Procedures

                                                           54
                                  SECTION IIIC
                   INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          GENERAL COMPUTER CONTROLS

Access Controls

Classifications and criteria have been established and communicated to resource owners. Resources are
classified based on risk assessments; classifications are documented and approved by an appropriate senior
official and are periodically reviewed.

Access authorizations are documented on standard forms and maintained on file, approved by senior
managers, and securely transferred to security managers. Owners periodically review access authorization
listings and determine whether they remain appropriate. The number of users who can dial into the system
from remote locations is limited and justification for such access is documented and approved by owners.

Security managers review access authorizations and discuss any questionable authorizations with resource
owners. All changes to security profiles by security managers are automatically logged and periodically
reviewed by management independent of the security function. Unusual activity is investigated. Security
is notified immediately when system users are terminated or transferred.

Emergency and temporary access authorizations are documented on standard forms and maintained on file,
approved by appropriate managers, securely communicated to the security function; and automatically
terminated after a predetermined period.

Standard forms are used to document approval for archiving, deleting, or sharing data files. Prior to sharing
data or programs with other entities, agreements are documented regarding how those files are to be
protected. Facilities housing sensitive and critical resources have been identified. All significant threats
to the physical well-being of sensitive and critical resources have been identified and related risks
determined. Access is limited to those individuals who routinely need access through the use of guards,
identification badges, or entry devices, such as key cards. Management regularly reviews the list of persons
with physical access to sensitive facilities. Keys or other access are needed to enter the computer room
and tape/media library. All deposits and withdrawals of tapes and other storage media from the library are
authorized and logged. Unissued keys or other entry devices are secured. Emergency exit and re-entry
procedures ensure that only authorized personnel are allowed to reenter after fire drills, etc.

Visitors to sensitive areas, such as the main computer room and tape/media library, are formally signed in
and escorted. Entry codes are changed periodically. Visitors, contractors, and maintenance personnel are
authenticated through the use of preplanned appointments and identification checks. Passwords are unique
for specific individuals, not groups; controlled by the assigned user and not subject to disclosure; changed
periodically--every 30 to 90 days; not displayed when entered; at least 6 alphanumeric characters in length;
and prohibited from reuse for at least 6 generations. Use of names or words is prohibited. Vendor-supplied
passwords are replaced immediately. Generic user IDs and passwords are not used. Attempts to log on
with invalid passwords are limited to 3-4 attempts.

Personnel files are automatically matched with actual system users to remove terminated or transferred
employees from the system. Password files are encrypted. For other devices, such as tokens or key cards,
users maintain possession of their individual tokens, cards, etc. and understand that they must not loan or
share these with others and must report lost items immediately.


                                                     55
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           GENERAL COMPUTER CONTROLS

An analysis of the logical access paths is performed whenever system changes are made. Security software
is used to restrict access. Access to security software is restricted to security administrators only.
Computer terminals are automatically logged off after a period of inactivity. Inactive users' accounts are
monitored and removed when not needed. Security administration personnel set parameters of security
software to provide access as authorized and restrict access that has not been authorized. This includes
access to data files, load libraries, batch operational procedures, source code libraries, security files, and
operating system files. Naming conventions are used for resources.

Database management systems (DBMS) and data dictionary controls have been implemented that restrict
access to data files at the logical data view, field, or field-value level; control access to the data dictionary
using security profiles and passwords; maintain audit trails that allow monitoring of changes to the data
dictionary; and provide inquiry and update capabilities from application program functions, interfacing
DBMS or data dictionary facilities. Use of DBMS utilities is limited. Access and changes to DBMS
software are controlled. Access to security profiles in the data dictionary and security tables in the DBMS
is limited.

Communication software has been implemented to verify terminal identifications in order to restrict access
through specific terminals; verify IDs and passwords for access to specific applications; control access
through connections between systems and terminals; restrict an application's use of network facilities;
protect sensitive data during transmission; automatically disconnect at the end of a session; maintain
network activity logs; restrict access to tables that define network options, resources, and operator profiles;
allow only authorized users to shut down network components; monitor dial-in access by monitoring the
source of calls or by disconnecting and then dialing back at preauthorized phone numbers; restrict in-house
access to telecommunications software; control changes to telecommunications software; ensure that data
are not accessed or modified by an unauthorized user during transmission or while in temporary storage;
and restrict and monitor access to telecommunications hardware or facilities.

In addition to logical controls: the opening screen viewed by a user provides a warning and states that the
system is for authorized use only and that activity will be monitored, dial-in phone numbers are not
published and are periodically changed, cryptographic tools have been implemented to protect the integrity
and confidentiality of sensitive and critical data and software programs. Procedures have been implemented
to clear sensitive data and software from discarded and transferred equipment and media. All activity
involving access to and modifications of sensitive or critical files is logged.

Security violations and activities, including failed logon attempts, other failed access attempts, and sensitive
activity, are reported to management and investigated. Security managers investigate security violations
and report results to appropriate supervisory and management personnel. Appropriate disciplinary actions
are taken. Violations are summarized and reported to senior management. Access control policies and
techniques are modified when violations and related risk assessments indicate that such changes are
appropriate.




                                                       56
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS

                     Tests of Described Policies and Procedures                                Results of Tests

Reviewed policies and procedures and resource classification documentation and           No exceptions were noted.
compared to risk assessments. Discussed any discrepancies with appropriate
officials. Interviewed resource owners.

Reviewed pertinent written policies and procedures. For a selection of users, (both      No exceptions were noted.
application user and IS personnel), review access authorization documentation.
Interview owners and review supporting documentation. Determine whether
inappropriate access is removed in a timely manner. For a selection of users with
dial-up access, review authorization and justification. Interview security managers
and review documentation provided to them. Review a selection of recent profile
changes and activity logs. Obtain a list of recently terminated employees from
Personnel, and for a selection, determine whether system access was properly
terminated.

Compared a selection of both expired and active temporary and emergency                  No exceptions were noted.
authorizations (obtained from the authorizing parties) with a system-generated list
of authorized users.

Examined standard approval forms and documents authorizing file sharing and file         No exceptions were noted.
sharing agreements. Interviewed data owners.

Reviewed a diagram of the physical layout of the computer and telecommunications         No exceptions were noted.
facilities, risk analysis, lists of individuals authorized access to sensitive areas,
visitor entry logs, documentation on and logs of entry code changes, procedures for
the removal and return of storage media from and to the library, written emergency
procedures, a system-generated list of current passwords, security software password
parameters, a list of IDs and passwords, dump of password files (e.g., hexadecimal
printout), a system generated list of inactive log on IDs, and determined why access
for these users had not been terminated, documentation supporting prior fire drills,
DBMS and Data dictionary security parameters and security system parameters.
Walk through facilities.

Review access path diagram.                                                              No exceptions were noted.

Observed entries to and exits from facilities, including sensitive areas during and      No exceptions were noted.
after normal business hours, utilities access paths, practices for safeguarding keys
and other devices, appointment and verification procedures for visitors, a fire drill,
users keying in passwords, terminals in use.

Interviewed management, employees, guards at facility entry, users and security          No exceptions were noted.
managers and database administrator

Selected from the log some returns and withdrawals, verified the physical existence      No exceptions were noted.
of the tape or other media, and determined whether proper authorization was
obtained for the movement.

Attempted to log on without a valid password; made repeated attempts to guess            No exceptions were noted.
passwords. Attempted to log on using common vendor supplied passwords.
Searched password file using audit software. Assessed procedures for generating
and communicating passwords to users. Evaluated biometric or other technically
sophisticated authentication techniques.




                                                            57
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS

                      Tests of Described Policies and Procedures                                Results of Tests

 Performed penetration testing by attempting to access and browsed computer               No relevant exceptions were
 resources.                                                                               noted.

 Reviewed pertinent policies and procedures. Reviewed parameters set by                   No exceptions were noted.
 telecommunications software or teleprocessing monitors. Tested
 telecommunications controls by attempting to access various files through
 communications networks. Identified all dial-up lines through automatic dialer
 software routines and compare with known dial-up access. Interviewed
 telecommunications management staff and users.

 Reviewed written procedures. Interviewed personnel responsible for clearing              No exceptions were noted.
 equipment and media. For a selection of recently discarded or transferred items,
 examined documentation related to clearing of data and software.

 Reviewed security software settings to identify types of activity logged, security       No exceptions were noted.
 violation reports and documentation showing reviews of questionable activities.

 Tested a selection of security violations to verify that follow-up investigations were   No exceptions were noted.
 performed and to determine what actions were taken against the perpetrator.

 Interviewed senior management and personnel responsible for summarizing                  No exceptions were noted.
 violations and reviewed any supporting documentation.

Description of Policies and Procedures

Application Software Development and Change Controls

System Development Lice Cycle (SDLC) methodology has been developed that provides a structured
approach consistent with generally accepted concepts and practices, including active user involvement
throughout the process, is sufficiently documented to provide guidance to staff with varying levels of skill
and experience, provides a means of controlling changes in requirements that occur over the system's life,
and includes documentation requirements. Program staff and staff involved in developing and testing
software have been trained and are familiar with the use of the organization's SDLC methodology.

Software change request forms are used to document requests and related approvals. Change requests
must be approved by both system users and data processing staff. Clear policies restricting the use of
personal and public domain software have been developed and are enforced. DFEC uses virus
identification software.

Test plan standards have been developed for all levels of testing that define responsibilities for each party
(e.g., users, system analysts, programmers, auditors, quality assurance, library control). Detailed system
specifications are prepared by the programmer and reviewed by a programming supervisor. Software
changes are documented so that they can be traced from authorization to the final approved code and they
facilitate "trace-back" of code to design specifications and functional requirements by system testers. Test
plans are documented and approved that define responsibilities for each party involved (e.g., users, systems
analysts, programmers, auditors, quality assurance, library control). Unit, integration, and system testing
are performed and approved in accordance with the test plan and applying a sufficient range of valid and


                                                             58
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS

invalid conditions. A comprehensive set of test transactions and data has been developed that represents
the various activities and conditions that will be encountered in processing. Live data is not used in testing
program changes, except to build test data files. Test results are reviewed and documented. Program
changes are moved into production only upon documented approval from users and system development
management.

Documentation is updated for software, hardware, operating personnel, and system users when a new or
modified system is implemented. Data center management and/or the security administrators periodically
review production program changes to determine whether access controls and change controls have been
followed.

Emergency changes are documented and approved by the operations supervisor, formally reported to
computer operations management for follow-up, and approved after the fact by programming supervisors
and user management.

Standardized procedures are used to distribute new software for implementation. Implementation orders,
including effective date, are provided to all locations where they are maintained on file.

Library management software is used to produce audit trails of program changes, maintain program version
numbers, record and report program changes, maintain creation/date information for production modules,
maintain copies of previous version, and control concurrent updates.


                      Tests of Described Policies and Procedures                           Results of Tests

 Reviewed SDLC methodology, system documentation to verify that SDLC                 No exceptions were noted.
 methodology was followed and training records. Interviewed staff.

 Identified recent software modifications and determined whether change request      No exceptions were noted.
 forms were used. Examined a selection of software change request forms for
 approvals. Interviewed software development staff.

 Interviewed users and data processing staff to determine if personnel software is   No exceptions were noted.
 restricted.

 Examined procedures for distributing new software. Examine implementation           No exceptions were noted.
 orders for a sample of changes.

 Reviewed test plan standards.                                                       No exceptions were noted.




                                                           59
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS

                     Tests of Described Policies and Procedures                               Results of Tests

For the software change requests selected:                                             No exceptions were noted.
•reviewed specifications;
•traced changes from code to design specifications;
•reviewed test plans;
•compared test documentation with related test plans;
•analyzed test failures to determine if they indicated ineffective software testing;
•reviewed test transactions and data;
•reviewed test results;
•reviewed documentation of management or security administrator reviews;
•verified user acceptance.
Determined whether operational systems experienced a high number of abends.

Reviewed pertinent policies and procedures. Interviewed personnel responsible for      No exceptions were noted.
library control. Examined a selection of programs maintained in the library and
assessed compliance with prescribed procedures. Determined how many prior
versions of software modules were maintained.

Examined libraries in use. Verified that source code existed for a selection of        The library management
production load modules by (1) comparing compile dates, (2) recompiling the source     software is not being used to
modules, and (3) comparing the resulting module size to production load module         manage or control the FECA
size.                                                                                  source code.

For critical software production programs, determined whether access control           The library management
software rules were clearly defined. Tested access to program libraries by examining   software is not being used to
security system parameters.                                                            manage or control the FECA
                                                                                       source code.

Reviewed pertinent policies and procedures. For a selection of program changes,        The library management
examined related documentation to verify that: procedures for authorizing              software is not being used to
movement among libraries were followed and before and after images were                manage or control the FECA
compared.                                                                              source code.




                                                            60
                                  SECTION IIIC
                   INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          GENERAL COMPUTER CONTROLS

Description of Policies and Procedures

Segregation of Duties

Policies and procedures for segregating duties exist and are up-to-date. Distinct systems support functions
are performed by different individuals, including the following: IS management, system design, application
programming, systems programming, quality assurance/testing, library management/change management,
computer operations, production control and scheduling , data control, data security, data administration,
and network administration.

No individual has complete control over incompatible transaction processing functions. Specifically, the
following combination of functions are not performed by a single individual: data entry and verification of
data, data entry and its reconciliation to output, input of transactions for incompatible processing functions
(e.g., input of vendor invoices and purchasing and receiving information), and data entry and supervisory
authorization functions (e.g., authorizing a rejected transaction to continue processing that exceeds some
limit requiring a supervisor's review and approval).

Data processing personnel are not users of information systems. They and security managers do not
initiate, input, or correct transactions. Day-to-day operating procedures for the data center are adequately
documented and prohibited actions are identified. Regularly scheduled vacations and periodic job/shift
rotations are required

Documented job descriptions accurately reflect assigned duties and responsibilities and segregation of duty
principles. Documented job descriptions include definitions of the technical knowledge, skills, and abilities
required for successful performance in the relevant position and can be used for hiring, promoting, and
performance evaluation purposes.

All employees fully understand their duties and responsibilities and carry out those responsibilities in
accordance to their job descriptions. Senior management is responsible for providing adequate resources
and training to ensure that segregation of duty principles are understood and established, enforced, and
institutionalized within the organization. Responsibilities for restricting access by job positions in key
operating and programming activities are clearly defined, understood, and followed.

Staff's performance is monitored on a periodic basis and controlled to ensure that objectives laid out in job
descriptions are carried out. Management reviews are performed to determine that control techniques for
segregating incompatible duties are functioning as intended and that the control techniques in place are
maintaining risks within acceptable levels (e.g., periodic risk assessments).

Detailed, written instructions exist and are followed for the performance of work. Operator instruction
manuals provide guidance on system operation. Application run manuals provide instruction on operating
specific applications. Operators are prevented from overriding file label or equipment error messages.

Personnel are provided adequate supervision and review, including each shift for computer operations. All
operator activities on the computer system are recorded on an automated history log. Supervisors routinely
review the history log and investigate any abnormalities. System startup is monitored and performed by

                                                     61
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS

authorized personnel. Parameters set during the initial program load (IPL) are in accordance with
established procedures.

                      Tests of Described Policies and Procedures                               Results of Tests

 Reviewed an agency organization chart showing IS functions and assigned                 No exceptions were noted.
 personnel and relevant alternate or backup assignments and determined whether the
 chart was current and each function was staffed by different individuals, job
 descriptions for several positions in organizational units and for user security
 administrators, the effective dates of the position descriptions and determined
 whether they were current, the adequacy of documented operating procedures for
 the data center.

 Interviewed selected management and IS personnel to determine that assignments          No exceptions were noted.
 did not result in a single person being responsible for combinations of functions and
 that the proper segregation of duties was maintained.

 Observed activities of personnel to determine the nature and extent of the              No exceptions were noted.
 compliance with the intended segregation of duties.

 Interview personnel filing positions for the selected job descriptions (see above).     No exceptions were noted.
 Determine from interviewed personnel whether senior management has provided
 adequate resources and training to establish, enforce and institutionalize within the
 organization.

 Interviewed management and subordinate personnel. Selected documents or actions         No exceptions were noted.
 requiring supervisory review and approval for evidence of such performance (e.g.,
 approval of input of transactions, software changes, etc.) Determined what reviews
 were conducted to assess the adequacy of duty segregation. Obtained and reviewed
 results of such reviews.

 Interviewed supervisors and personnel. Observed processing activities. Reviewed         No exceptions were noted.
 manuals and history log reports for signatures indicating supervisory review.
 Determined who was authorized to IPL the system, what steps were followed, and
 what controls were in place to monitor console activity during the process and
 whether operators overrode the IPL parameters.




                                                            62
                                  SECTION IIIC
                   INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          GENERAL COMPUTER CONTROLS

Description of Policies and Procedures

Systems Software

Policies and procedures for restricting access to systems software are kept up-to-date. Access to system
software is restricted to a limited number of personnel, corresponding to job responsibilities. Application
programmers and computer operators are specifically prohibited from accessing system software.
Documentation showing justification and management approval for access to system software is kept on
file. The access capabilities of system programmers are periodically reviewed for propriety to see that
access permissions correspond with job duties.

Policies and procedures for using and monitoring use of system software utilities is kept up-to-date.
Responsibilities for using sensitive system utilities have been clearly defined and are understood by systems
programmers. Responsibilities for monitoring use are defined and understood by technical management.
The use of sensitive system utilities is logged using access control software reports or job accounting data
(e.g., IBM's System Management Facility).

The use of privileged system software and utilities is reviewed by technical management. Inappropriate
or unusual activity in using utilities is investigated. System programmers' activities are monitored and
reviewed. Management reviews are performed to determine that control techniques for monitoring use of
sensitive system software are functioning as intended and that the control techniques in place are
maintaining risks within acceptable levels (e.g., periodic risk assessments).

Policies and procedures are kept up-to-date for identifying, selecting, installing, and modifying system
software. Procedures include an analysis of costs and benefits and consideration of the impact on
processing reliability and security. Procedures exist for identifying and documenting system software
problems. This should include using a log to record the problem, the name of the individual assigned to
analyze the problem, and how the problem was resolved.

New system software versions or products and modifications to existing system software receive proper
authorization and are supported by a change request. New system software versions or products and
modifications to existing system software are tested and the test results are approved before
implementation. Procedures include: a written standard that guides the testing, which is conducted in a
test rather than production environment; specification of the optional security-related features to be turned
on, when appropriate; review of test results by technically qualified staff who document their opinion on
whether the system software is ready for production use; and review of test results and documented
opinions by data center management prior to granting approval to move the system software into
production use.

Procedures exist for controlling emergency changes. Procedures include: authorizing and documenting
emergency changes as they occur; reporting the changes for management review; and review by an
independent IS supervisor of the change.

Installation of system software is scheduled to minimize the impact on data processing and advance notice
is given to system users. Migration of tested and approved system software to production use is performed

                                                     63
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS

by an independent library control group. Outdated versions of system software are removed from
production libraries. Installation of all system software is logged to establish an audit trail and reviewed by
data center management. Vendor-supplied system software is still supported by the vendor. All system
software is current and has current and complete documentation.


                      Tests of Described Policies and Procedures                               Results of Tests

 Reviewed pertinent policies and procedures and interviewed management and               No exceptions were noted.
 systems personnel regarding access restrictions. Observed personnel access system
 software. Attempted to access system software. Determined the last time the access
 capabilities of systems programmers were reviewed.

 Selected some systems programmers and determined whether management                     No exceptions were noted.
 approved documentation supports their access to system software. Selected some
 application programmers and determined whether they were not authorized access.

 Reviewed pertinent policies and procedures, logs, and documentation supporting the      No exceptions were noted.
 supervising and monitoring of systems programmers' activities.

 Determined whether logging occurs; what information was logged; using security          No exceptions were noted.
 software reports, determined who could access the logging files.

 Interviewed management and systems personnel regarding their responsibilities,          No exceptions were noted.
 technical management regarding their reviews of privileged system software and
 utilities usage, systems programmer supervisors to determine their activities related
 to supervising and monitoring their staff.

Description of Policies and Procedures

Service Continuity

ESA has drafted a disaster recovery/business continuity plan which lists critical operations and data and
that prioritizes data and operations, reflects current conditions and identifies and documents resources
supporting critical operations such as computer hardware, computer software, computer supplies, system
documentation, telecommunications, office facilities and supplies, and human resources. The draft disaster
recovery/business continuity plan is expected to be finalized in January 2003.

Within ESA’s draft disaster recovery/business continuity plan, emergency processing priorities have been
documented. Backup files are created on a prescribed basis and rotated off-site often enough to avoid
disruption if current files are lost or damaged. System and application documentation is maintained at the
off-site storage location. The backup storage site is graphically removed from the primary site, and
protected by environmental controls and physical access controls.

Fire suppression and prevention devices have been installed and are working, e.g., smoke detectors, fire
extinguishers, and sprinkler systems. Controls have been implemented to mitigate other disasters, such as
floods, earthquakes, etc. Redundancy exists in the air cooling system. An uninterruptible power supply
or backup generator has been provided so that power will be adequate for orderly shut down.


                                                            64
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           GENERAL COMPUTER CONTROLS

Environmental controls are periodically tested. Eating, drinking, and other behavior that may damage
computer equipment is prohibited.

All data center employees have received training and understand their emergency roles and responsibilities.
Data center staff receive periodic training in emergency fire, water, and alarm incident procedures.
Emergency response procedures are documented and periodically tested.

Policies and procedures exist and are up-to-date. Routine periodic hardware preventive maintenance is
scheduled and performed in accordance with vendor specifications and in a manner that minimizes the
impact on operations. Regular and unscheduled maintenance performed is documented. Flexibility exists
in the data processing operations to accommodate regular and a reasonable amount of unscheduled
maintenance. Spare or backup hardware is used to provide a high level of system availability for critical
and sensitive applications. Goals are established by senior management on the availability of data
processing and on-line services. Records are maintained on the actual performance in meeting service
schedules.

Problems and delays encountered, the reason, and the elapsed time for resolution are recorded and analyzed
to identify recurring patterns or trends. Senior management periodically reviews and compares the service
performance achieved with the goals and surveys user departments to see if their needs are being met.
Changes of hardware equipment and related software are scheduled to minimize the impact on operations
and users, thus allowing for adequate testing. Advance notification on hardware changes is given to users
so that service is not unexpectedly interrupted.

A contingency plan has been drafted that reflects current conditions, will be approved by key affected
groups including senior management, data center management, and program managers, clearly assigns
responsibilities for recovery, includes detailed instructions for restoring operations (both operating system
and critical applications), identifies the alternate processing facility and the backup storage facility, includes
procedures to follow when the data/service center is unable to receive or transmit data, identifies critical
data files, is detailed enough to be understood by all agency managers, includes computer and
telecommunications hardware compatible with the agencies needs, and has been distributed to all
appropriate personnel.

The plan provides for backup personnel so that it can be implemented independent of specific individuals.
User departments have developed adequate manual/peripheral processing procedures for use until
operations are restored.




                                                       65
                                     SECTION IIIC
                      INFORMATION PROVIDED BY THE SERVICE AUDITOR
                             GENERAL COMPUTER CONTROLS

Contracts or interagency agreements have been established for a backup data center and other needed
facilities that: are in a state of readiness commensurate with the risks of interrupted operations, have
sufficient processing capacity, and are likely to be available for use. Alternate telecommunication services
have been arranged. Arrangements are planned for travel and lodging of necessary personnel, if needed.


                      Tests of Described Policies and Procedures                                   Results of Tests

 Reviewed related policies. Interviewed program, data processing, and security              A draft disaster recovery/
 administration officials. Determined their input and their assessment of the               business continuity plan for
 reasonableness of priorities established.                                                  ESA does exist and is
                                                                                            scheduled for completion in
                                                                                            January 2003.

 Reviewed written policies and procedures for backing up files, test policies,              No exceptions were noted.
 documentation supporting recent tests of environmental controls, policies and
 procedures regarding employee behavior, training records, training course
 documentation, emergency response procedures, and maintenance documentation.

 Compared inventory records with the files maintained off-site, and determined the          No exceptions were noted.
 age of these files. For a selection of critical files, located and examined the backup
 files. Determined whether backup files were created and rotated off-site as
 prescribed, and were sent before prior versions were returned.

 Examined the back-up storage site and the entity's facilities. Interviewed data            No exceptions were noted.
 center staff and management, site managers, senior management, data processing
 management, and user management. Observed employee behavior and that
 operations staff were aware of the locations of fire alarms, fire extinguishers, regular
 and auxiliary electrical power switches, breathing apparatus, and other devices that
 they may be expected to be used in an emergency. Determined whether the
 activation of heat and smoke detectors will notify the fire department.

 Reviewed the contingency plan and compare its provisions with the most recent risk         A draft disaster recovery/
 assessment and with a current description of automated operations.                         business continuity plan for
 Observed copies of the contingency plan held off-site. Interviewed senior                  ESA does exist but a complete
 management, data center management, and program managers.                                  inventory listing of items for
                                                                                            operations is not included in
                                                                                            the disaster recovery/business
                                                                                            continuity plan.

 Reviewed policies on testing, test results, final test reports and documentation           A draft disaster recovery/
 supporting contingency plan adjustments. Observed a disaster recovery test.                business continuity plan for
 Interviewed senior managers to determine if they were aware of the test results.           ESA does exist but a complete
                                                                                            inventory listing of items for
                                                                                            operations is not included in
                                                                                            the disaster recovery/business
                                                                                            continuity plan.




                                                             66
                                  SECTION IIIC
                   INFORMATION PROVIDED BY THE SERVICE AUDITOR
                        TRANSACTION PROCESSING CONTROLS

Transaction processing controls for compensation and medical benefit payments were tested in the
following areas:

          Case Creation
          Initial Eligibility
          File Maintenance
          Continuing Eligibility (Medical evidence and earnings information)
          Accuracy of Compensation Payments
          Schedule Awards
          Death Benefits
          Medical Bill Payment Processing
          Third Party Settlements
          Accounts Receivable

Control Objective 1: Case Creation - Control policies and procedures provide reasonable assurance that
case files were initially set up properly and information related to the claimant was input into the computer
systems correctly.

Description of Policies and Procedures:

The FECA Procedure Manual 2-401(3) and (4) contains the requirements for proper set up of the case file
and input into the appropriate computer systems.

The manual assigns the duties of keeping the case management file data accurate and up-to-date to the CE.
The case management file is set up by a Case Create Clerk and from this set up, a Form CA-800 is
generated. Form CA-800 is a case summary sheet. Accurate data in the CMF is essential to ensure that
the information used to set up the ACPS is correct. Once the ACPS is set up for each claimant, all vital
data must be updated in both the CMF and ACPS. This data includes such items as the claimant's name,
address, date of birth, social security number and chargeback code. The CE verifies the accuracy of the
information entered by the Case Create Clerk by comparing Form CA-1, CA-2 or CA-5 completed by the
claimant to Form CA-800 that was generated by the system.

The employing agency is charged with the responsibility of providing the chargeback code on the CA-1,
CA-2, or CA-5. If the employing agency does not designate a chargeback code, the case creation clerk
determines which chargeback code should be applied. Once the case file is created, a postcard is sent to
the employing agency to confirm the chargeback code. A negative confirmation process is used.




                                                     67
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS



 Tests of Described Policies and Procedures:                                 Results of Tests:

 For a non-statistical sample of 50 initial eligibility items, we compared   No exceptions were noted.
 case originating forms, such as Forms CA-1, CA-2 and CA-5, to the
 information contained in the CMF and ACPS to ensure that the case
 origination process resulted in the proper setup of the case files (to
 include agency chargeback codes) and related computer systems with
 current and accurate information.



Control Objective 2: Initial Eligibility - Control policies and procedures provide reasonable assurance
that each participant met the requirements of 1) time; 2) civil employee; 3) fact of injury; 4) performance
of duty; and 5) causal relationship prior to acceptance as an eligible participant.

Description of Policies and Procedures:

An injured worker must satisfy five basic criteria to be eligible for compensation benefits. These
criteria are: 1) time; 2) civil employee; 3) fact of injury; 4) performance of duty; and 5) causal relationship.

1) Time - The FECA Procedure Manual 2-801(3) contains the requirements for the filing of notice of injury
or occupational disease. A timely notice of injury must be filed for a claimant to be eligible for
compensation payments. The time period filing requirements are specified in 5 U.S.C. 8119. For injuries
on or after September 30, 1974, written notice of injury must be filed within 30 days after the occurrence
of the injury. For injuries occurring between December 7, 1940 and September 6, 1974, written notice
of the injury should be given within 48 hours. The FECA Procedure Manual 2-801(3) also contains the
requirements for filing a compensation claim. A timely compensation claim must be filed for a claimant to
be eligible for compensation payments. The time period filing requirements are specified in 5 U.S.C. 8122.
For injuries on or after September 30, 1974, compensation claims must be filed within 3 years after the
occurrence of the injury. For injuries occurring between December 7, 1940 and September 6, 1974,
compensation claims must be filed within 1 year. A few exceptions to these requirements are allowed.

2) Civil Employee - The FECA Procedure Manual 2-802(2) and (4) contain the requirements for
determining whether an individual meets the second of the five requirements for benefits, being a civil
employee. The definition of a civil employee is in 5 U.S.C. 8101(1). Basically, status as a civil employee
is met when: a) the service performed for the reporting office by the individual was of a character usually
performed by an employee as distinguished from an independent contractor; and b) that a contract of
employment was entered into prior to the injury.

3) Fact of Injury - The FECA Procedure Manual 2-803(3)(a) contains the requirements for the "fact of
injury." The fact of injury consists of two components which must be considered in conjunction with each
other. First is whether the employee actually experienced the accident, event or other employment factor
which is alleged to have occurred; and, second is whether such accident, untoward event or employment
factor caused a personal injury.



                                                            68
                                  SECTION IIIC
                   INFORMATION PROVIDED BY THE SERVICE AUDITOR
                        TRANSACTION PROCESSING CONTROLS

The FECA Procedure Manual 2-803(5) contains the requirements for the evidence necessary to establish
the occurrence of an unwitnessed accident. In establishing the fact of injury for an unwitnessed accident,
OWCP should consider the surrounding circumstances. The CE must be able to visualize the accident and
relate the effects of the accident to the injuries sustained by the injured worker, especially where the
claimant delayed seeking medical evidence.

4) Performance of Duty - The FECA Procedure Manual 2-804 contains the requirements for the
performance of duty criterion. The performance of duty criterion is considered after the questions of
"time," "civil employee," and "fact of injury" have been established. Even though an employee may have
been at a fixed place of employment at the time of injury, the injury may not have occurred in the
performance of duty. The employee is generally not covered for travel to and from work. There are five
exceptions to this rule. Statutory exclusions exist under which claims for compensation should be denied
due to the willful misconduct of the employee. These claims are denied even though the injured worker
has met the fact of injury and performance of duty requirements.

5) Causal Relationship - The FECA Procedure Manual 2-805(2) contains the requirements for obtaining
medical evidence necessary to establish a causal relationship between the injury and employment factors.
An injury or disease may be related to employment factors in any of four ways: a) Direct Causation; b)
Aggravation; c) Acceleration; or d) Precipitation.

The FECA Procedure Manual 2-807(17)(d)(2) contains the requirements for the 3-day waiting period
which is required by 5 U.S.C. 8117. An employee is not entitled to compensation for the first 3 days of
temporary disability, except when: a) the disability exceeds 14 days; b) the disability is followed by
permanent disability; or c) claimant is undergoing medical services or vocational rehabilitation during the
3-day period.

The CEs are required to evaluate the injury reports and supporting medical evidence submitted by
claimants. The injury reports and medical evidence must support that the claimant has met the burden of
proof with regards to the five criteria to establish initial eligibility. If the claimant has not submitted
documentation which fully supports the eligibility of the claimant, it is the claims examiner's responsibility
to request such further information as the CE deems necessary. Once a CE concludes that a claimant is
either eligible or not eligible for benefits under the FECA program, the CE notates the decision on the Form
CA-800 in the case file and updates the eligibility code in the CMF system. Claimants are notified of the
CE's decision with regards to eligibility. If the claimant disagrees with the CE's decision concerning
eligibility, the claimant may request a hearing for resolution.




                                                     69
                                     SECTION IIIC
                      INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           TRANSACTION PROCESSING CONTROLS


 Tests of Described Policies and Procedures:                                   Results of Tests:

 For a non-statistical sample of 50 initial eligibility transactions, we       No exceptions were noted.
 reviewed the case file to determine whether the notice of injury was
 filed timely, whether the claimant was a civil employee, whether
 sufficient evidence was provided to prove the injury occurred as
 reported, whether sufficient evidence was provided to prove the
 employee was in performance of their duties at the time of injury,
 whether sufficient evidence was provided to prove the injury was
 causally related to employment factors, and whether the CE accepted
 the condition and indicated approval of the accepted condition in the
 case file.



Control Objective 3: File Maintenance - Control policies and procedures provide reasonable assurance
that claimant's address and social security number were correct in the ACPS and the chargeback code was
correct in the CMF.

Description of Policies and Procedures:

The FECA Procedure Manual 5-308(5) contains the requirements for updating the ACPS when corrections
are necessary to the claimant's address, social security number and chargeback code. When a report of
injury is first received, a record is created in the CMF. When a request is made for compensation for lost
wages, a schedule award or for death benefits, a complete case record is then created in the ACPS. The
information transferred to the ACPS for the address, social security number and chargeback code is the
information in the CMF at the time the record is created. If any of the information changes, both the ACPS
and the CMF must be updated with the new information.


 Tests of Described Policies and Procedures:                                   Results of Tests:

 For a total of 162 cases, from a sample of 112 statistically selected         In 2 of 50 non-statistical items sampled,
 internal control compensation transactions and 50 non-statistically           the claimant’s social security numbers
 selected initial eligibility transactions, we reviewed documentation in       were incorrect in the CMF. No exceptions
 the case files to ensure that the social security number, date of birth and   were noted in the statistical sample. No
 the address were accurate in the ACPS and CMF.                                other exceptions were noted.

 For a total of 162 cases, from a sample of 112 statistically selected         No exceptions were noted.
 internal control compensation transactions and 50 non-statistically
 selected initial eligibility cases, we reviewed documentation in the case
 files to ensure that the chargeback code was accurate in the CMF.




                                                             70
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

Control Objective 4: Continuing Eligibility (Medical Evidence) - Control policies and procedures
provide reasonable assurance that claimants submitted medical evidence to support continuing eligibility
for compensation and medical benefits.

Description of Policies and Procedures:

The FECA Procedure Manual 2-812(6) contains the requirements for the periodic review of medical
evidence to verify continuing disability. The frequency of the medical review required depends on the type
of compensation the claimant is receiving. Some claimants are required to submit medical evidence
annually and others every 2 or 3 years.

 Tests of Described Policies and Procedures:                                Results of Tests:

 For a total of 132 cases, from a sample of 82 statistically selected       In 2 of the 82 statistically selected items
 compensation transactions and 50 non-statistically selected current        and in 13 of 50 non-statistically selected
 medical transactions, we reviewed medical evidence in case files to        items sampled, current medical evidence
 ensure that the current medical evidence supported the disability status   was not located within the case file.
 for the compensation being received.



Control Objective 5: Continuing Eligibility (Earnings Information) - Control policies and procedures
provide reasonable assurance that claimants submitted earnings information and authorization to obtain
earnings information from Social Security to support continuing eligibility for compensation and medical
benefits.

Description of Policies and Procedures:

OWCP mails each claimant a Form CA-1032 each year. The Form CA-1032 asks the claimants to verify
the status of their dependents and report any and all earnings by the claimants. The information reported
by the claimant on Form CA-1032 is to be reviewed by a CE and the compensation rate or amount adjusted
accordingly.

The FECA Procedure Manual 2-812(6) contains the requirements for the frequency with which claimants
must complete Form CA-1032. The FECA Procedure Manual 2-812(10) contains the requirements for
changing the ACPS system when benefit changes are indicated by the claimant on the Form CA-1032. The
ACPS system must be changed to reflect the information provided by the claimant to ensure that benefits
are being paid at the proper compensation rate and amount.

The FECA Procedure Manual 2-812(9) and (10) contain the requirements for obtaining a claimant's
earnings report from the SSA. Earnings are requested from the SSA on Form CA-1036 to determine
whether an adjustment is needed to a claimant's compensation rates. A claimant's compensation rate can
be adjusted based on the information supplied by the SSA in response to Form CA-1036. The ACPS
system must be changed to reflect the information updated by the SSA to ensure that benefits are being
paid at the proper compensation rate.



                                                            71
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

A statistical sample of 97 claimants, from 82 lost wages claimants and 15 schedule award claimants, were
tested for continuing eligibility controls, however, some specific tests did not apply to all claimants due to
the length of time of the claimant's injury, the date of the claim for benefits, or the claimant's case status.
Therefore, the number of tests indicated below is the number of items to which tests were actually applied.

 Tests of Described Policies and Procedures:                                Results of Tests:

 From a statistical sample of 97compensation claimants, (82 lost wage       In 2 of 84 items sampled, CA-1032s had
 cases and 15schedule award cases), 84 cases required current eligibility   not been obtained from the claimants to
 verification due to the age of the case. We reviewed the case file to      verify earnings and dependent information
 determine whether a CA-1032 had been requested within the past year        within the last year. No other exceptions
 to verify earnings and dependent information.                              were noted.

 From a statistical sample of 82 lost wage claimants, 66 cases required      In 2 of 66 items sampled, a release for
 current earnings information due to the age of the case. We reviewed       authorization to obtain earnings
 the case file to determine whether a CA-1036 and CA-936 had been           information from SSA was not sent to the
 released to the claimant to obtain earnings information from SSA in the    claimants. No other exceptions were noted.
 past three years.

 For a statistical sample of 82 continuing eligibility claimants, we        No exceptions were noted.
 reviewed the case file to determine whether the Senior Claims Examiner
 (SCE) had requested claims information from SSA, if required.

 From a statistical sample of 97 compensation claimants, (82 lost wage      No exceptions were noted.
 cases and 15 schedule award cases), we reviewed the case file to
 determine whether the case was referred to appropriate official if the
 claimant refused to return the CA-1032 or release earnings information.


Control Objective 6: Accuracy of Compensation Payments - Control policies and procedures provide
reasonable assurance that components of compensation payments including the correct compensation
percentage, pay rate, number of hours paid, verification of leave without pay status, absence of dual
compensation, proper deduction of Health Benefit Insurance (HBI) and Optional Life Insurance (OLI),
and proper reimbursement of burial bills.

Description of Policies and Procedures:

The FECA Procedure Manual 2-900 contains the requirements for the computation of compensation where
the injury occurred after September 12, 1960. The Branch of Claims Services is responsible for the
computation of compensation payments. The CE is responsible for determining the several factors used
in computing compensation.

The FECA Procedure Manual 2-901 contains the requirements to periodically adjust compensation
payments to reflect the increase in the cost of living. CPI adjustments are automatically calculated by the
ACPS.




                                                           72
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS



Tests of Described Policies and Procedures:                                Results of Tests:

For a total of 321 cases, from a statistical sample of 177 compensation    In 16 of 177statistically selected sample
cases and non-statistical samples totaling 144 cases (50 initial           items, claimants were overpaid a net of
eligibility cases, 75 multiple claim cases and 19 gross override cases),   $117,398 (of which 3items totaling a net
we reviewed documentation in the case files to ensure that the             overpayment of $121,476 were in the high
components comprising compensation benefits were determined                dollar strata which was tested at 100%). In
correctly.                                                                 26 of 144 non-statistically selected sample
                                                                           items, claimants were overpaid a net
                                                                           overpayment of $11,675. Claimants were
                                                                           overpaid a net of $129,073.

                                                                           The net overpayment resulted from the use
                                                                           of incorrect:
                                                                           18 Payrates                      $66,873
                                                                           8 Compensation periods            14,909
                                                                           5 Compensation percentages         1,193
                                                                           9 HBI/OLI withholdings               681
                                                                           1 Effective payrate date            (211)
                                                                           1 Benefits paid after remarriage 45,628
                                                                              Net Overpayment              $129,073

For a total of 162 cases, from a statistical sample of 112 compensation    No exceptions were noted.
cases and 50 initial eligibility cases, we reviewed those transactions
whereby a single payment was in excess of $50,000 to ensure the
payment was authorized by a senior official at a GS-13 or higher.

For a non-statistical sample of 75 multiple claim cases, we reviewed the   In 3 of 75 multiple claims cases tested, the
appropriateness of the receipt of compensation for more than one injury    claimants were paid unallowable
for the same period of time (multiple claims cases). This concurrent       overlapping compensation for a net
payment of benefits is allowable up to certain amounts and in certain      overpayment amount of $13,651. No other
instances.                                                                 exceptions were noted.

For a statistical sample of 25 schedule award transactions and a non-      In 1of 25 schedule award cases tested, a
statistical sample of 19 gross override transactions, we reviewed the      manual calculation of an award did not
appropriateness of overriding the ACPS calculated compensation             correctly apply the CPI increase resulting
amount with a different gross compensation amount (gross override          in an underpayment of $22,881. In 2 of
cases). A manual override is required in instances such as when a          19 gross override cases tested, the CPI was
claimant's compensation must be paid to several individuals.               applied late and the claimants were
                                                                           underpaid a net amount of $403. No other
                                                                           exceptions were noted.




                                                           73
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS


 We reviewed the "compensation calculation program" data that was         No exceptions were noted.
 updated in the mainframe computer system from June 1, 2000 through
 April 30, 2001, to ensure that:

 <         The mainframe's "compensation calculation program" was
           correctly using the information entered into the ACPS by the
           CEs and accurately calculating compensation benefit
           payments to the claimants.

 <         The mainframe's "compensation calculation program" was
           correctly updated with the current CPI data and accurately
           calculated the CPI increase to the claimant's compensation
           benefit payments.


Control Objective 7: Schedule Awards - Control policies and procedures provide reasonable assurance
that claimants had reached maximum medical improvement prior to receipt of a schedule award, medical
evidence was obtained, and medical evidence stated the percentage of impairment.

Description of Policies and Procedures:

The FECA Procedure Manual 2-808(6) contains the requirements for supporting a schedule award. The
file must contain competent medical evidence which: 1) shows that the impairment has reached a
permanent and fixed state and indicates the date on which this occurred; 2) describes the impairment in
sufficient detail for the CE to visualize the character and degree of disability; and 3) gives a percentage
evaluation of the impairment. DMAs calculate the percentage of impairment for the schedule award.

 Tests of Described Policies and Procedures:                              Results of Tests:

 From the statistical sample of 177 compensation items, 25 items were     No exceptions were noted.
 for schedule awards, we reviewed documentation in the case files to
 ensure that claimants receiving compensation for schedule awards had
 medical evidence in the case files that supported their impairment or
 disability.



Control Objective 8: Death Benefits - Control policies and procedures provide reasonable assurance that
proper notification of death was made; if the DMA requested an autopsy, if needed; if a death certificate
was obtained; if burial bills were obtained; and if dependent information for death benefits was verified.

Description of Policies and Procedures:

The FECA Procedure Manual 2-700(5) contains the requirements for proper and supporting documentation
for the establishment of death claims and rights of the beneficiary. Some of the documents that claimants
must submit are: 1) death certificates; 2) names and addresses of next of kin; 3) marriage certificates (civil
certificates); 4) birth certificates for each child; 5) divorce, dissolution, or death certificates for prior
marriages; and 6) itemized burial bills, receipted, if paid.


                                                         74
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS


 Tests of Described Policies and Procedures:                                 Results of Tests:

 From the statistical sample of 177 compensation items, 15 items were        In 1 of 15 items sampled, a current CA-12
 for death benefits, we reviewed documentation in the case files to ensure   had not been obtained from the
 that the beneficiaries receiving compensation for death benefits had        beneficiaries to verify earnings and
 documentation in the case files that established their right as the         dependent information within the last year.
 beneficiaries.

Control Objective 9: Medical Bill Payment Processing - Control policies and procedures provide
reasonable assurance that medical bill payments were properly authorized, approved, input, and reviewed,
as required.

Description of Policies and Procedures:

The FECA Procedure Manual Part 5 provides detailed instructions for use of the BPS:
<       Section 200 provides an overview of the system, describes the flow of bills through the office,
        houtlines authorities and responsibilities, describes sources of information to be used in bill
        adjudication, and outlines procedures for some functions which support the BPS.

<          Section 201 describes keying instructions for the various BPS programs that are available to
           general users, such as CEs, fiscal personnel, keyers and contact representatives.

<          Section 202 describes the different BPS jobs which must be run and how to run them. These
           activities are generally carried out by the Systems Manager or operator.

<          Section 203 describes the coding schemes used by the BPS.

<          Section 204 describes the general rules which underlie bill adjudication.

<          Section 205 describes how suspended bills should be resolved.

<          Section 206 describes how informal appeals of Explanation of Benefits denial letters and formal
           appeals of fee schedule determinations should be processed.

<          Section 207 describes the various BPS reports available, their uses, and how to run them.

<          Section 208 describes other activities related to the BPS which are not addressed elsewhere,
           such as tracers, audits, controls and supervisory/management review.




                                                           75
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS


Tests of Described Policies and Procedures:                                  Results of Tests:

For a total of 242 medical bill payments, from a statistical sample of       In 7 of 182 statistically selected medical
182 medical bill payments and non statistical samples of 60 medical bill     bills tested, medical providers were
payments, (50 provider type and 10 potential duplicate payments), we         overpaid a net of $181,576 (of which 3
reviewed medical bills paid to ensure that bills were correctly entered      payments totaling $181,411were in the
into the BPS; bills contained all information for proper adjudication;       high dollar strata which was tested at
amounts were not paid in excess of district established limits without       100%). In 7 of 60 non-statistically selected
proper approval by authorized personnel; discounts were taken, if            sample items, medical providers were
offered; and hospital bills were for services which were considered          overpaid a net of $55,230. Medical
proper charges against the Special Benefit Fund.                             providers were overpaid a net of $236,807.

                                                                             The net overpayment resulted from the use
                                                                             of incorrect:
                                                                             1 fee schedule maximum exceeded $       19
                                                                             1 Convenience item paid                213
                                                                             5 keying errors
                                                                             16,311 4 Bypass codes used incorrectly
                                                                             186,454
                                                                             1 Medical paid when case was
                                                                                not yet accepted
                                                                             33,465
                                                                             1 Bills keyed same day not edited      300
                                                                             1 Chiropractor paid when not
                                                                                 for specified injury                45
                                                                                 Net Overpayment               $236,807

For a statistical sample of 82 internal control medical bill transactions,   No exceptions were noted.
we reviewed case files to ensure that a medical report was submitted for
the services provided, surgery or equipment was approved prior to
payment of a medical bill, when required, and that the medical services
rendered related to the accepted condition.

For a statistical sample of 82 medical bill transactions, we reviewed        No exceptions were noted.
bills which were subject to the Prompt Payment Act to ensure the bills
were paid within 30 days or interest was paid if the bill was paid within
45 days.

We reviewed the guidelines established by the Health Care Financing          No exceptions were noted.
Administration and the American Medical Association and the medical
fee schedule data that was updated in the mainframe computer system
from June 1, 2000 through April 30, 2001, to ensure that the
mainframe's "medical fee schedule calculation program" was correctly
updated with the current fee schedule data and accurately calculating
the amounts due to medical providers.




                                                            76
                                       SECTION IIIC
                        INFORMATION PROVIDED BY THE SERVICE AUDITOR
                             TRANSACTION PROCESSING CONTROLS

Control Objective 10: Third Party Settlements - Control policies and procedures provide reasonable assurance that
third party settlements are identified, tracked, and collected.

Description of Policies and Procedures:

The FECA Procedure Manual 2-1100 outlines the procedures for processing third party cases:

<              Sections (2) and (3) define authorities and responsibilities involved with third party cases.

<              Section (4) describes the letters, forms and status codes used to process and track the progress of third
               party cases.

<              Section (5) defines a minor injury.

<              Section (7) provides instructions for third party case development by key personnel, such as CEs and
               DCE's.

<              Section (8) provides instructions to close out third party cases that are not economical to pursue or that
               would not be successful with further efforts.

<              Section (9) lists certain third party cases that are not to be closed by the DCE and should be sent to the
               appropriate SOL.

<              Section (10) provides instructions for handling settlement cases where the injury is "minor" and the
               claimant is negotiating or has made a settlement without the benefit of an attorney.

<              Section (11) provides instructions for the referral of third party cases to the SOL.

<              Section (13) provides instructions for when a settlement has been made or is imminent in third party cases
               referred to the SOL.

    Tests of Described Policies and Procedures:                                  Results of Tests:

    From the non-statistical sample of 35 items third party cases and 50         In 6 of 85 third party cases, the case status
    initial eligibility cases, we determined whether the third party indicator   codes were incorrectly reported in the
    contained in the NCMF was accurate.                                          CMF. For 3 cases, the case files had status
                                                                                 codes which indicated a third party
                                                                                 potential when the third party aspect of the
                                                                                 case file had been closed or was not
                                                                                 present. For 3 cases, the case files had
                                                                                 incorrect active status codes. District
                                                                                 offices could erroneously make or deny
                                                                                 payments to claimants if unabsorbed third
                                                                                 party credits exist or are improperly
                                                                                 indicated and the correct compensation
                                                                                 payments are not made. No other
                                                                                 exceptions were noted.

                                                                77
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS


Tests of Described Policies and Procedures:                                 Results of Tests:

From the non-statistical sample of 35 items third party cases, we           In 1 of 35 third party cases, CA-1045s
determined whether the Letter CA-1045, which requests information           were not issued to the claimants or, if no
from the claimant regarding the action taken against a third party by the   response was received from the claimants
claimant, including the hiring of an attorney, was released to the          to the first request, second request CA-
claimant, when necessary, and the proper follow-up actions were             1045s were not timely issued to the
conducted when the claimant did not reply within 30 days.                   claimants. No other exceptions were noted.

From the non-statistical sample of 35 items third party cases, we           No exceptions were noted.
determined whether third party cases were properly referred to a DCE.

From the non-statistical sample of 35 items third party cases, we           No exceptions were noted.
determined whether the appropriate forms were released to the attorneys
of claimants involved in a third party case.

From the non-statistical sample of 35 items third party cases, we           In 1 of 35 third party cases, CA-160s was
determined whether the third party cases were referred to the SOL,          not issued to the solicitor’s office. For 1 of
when required and the appropriate actions were taken to track, monitor      the 35 third party cases, the case file
and resolve third party cases through the SOL.                              indicated that the case had been referred to
                                                                            the solicitor but it had not been referred to
                                                                            the SOL. No other exceptions were noted.

From the non-statistical sample of 35 items third party cases, we           No exceptions were noted.
determined whether when completed Form CA-162s (Statement of
Recovery) from the SOL were received (or recovery statements from a
claimant), the Summary of Disbursements, Form CA-164s, were
properly prepared and forwarded to the fiscal section for completion.

From the non-statistical sample of 35 items third party cases, we           No exceptions were noted.
determined whether the fiscal section properly established account
receivables and maintained accounting records when third party
surpluses were created.

From the non-statistical sample of 35 items third party cases, we           No exceptions were noted.
determined whether claimants were notified when the third party
settlement was in excess of the prior compensation suspended via a
Letter CA-1044 and claimants were notified when the third party
settlement was not in excess of the prior compensation suspended via a
Letter CA-1120.




                                                          78
